<html>
<title> - ASSESSING CHALLENGES AND OPPORTUNITIES FOR PEACE IN SUDAN</title>
<body><pre>[Senate Hearing 111-659]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-659

       ASSESSING CHALLENGES AND OPPORTUNITIES FOR PEACE IN SUDAN

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 26, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
61-711 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            RUSSELL D. FEINGOLD, Wisconsin, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma

                              (ii)        











                            C O N T E N T S

                              ----------                              
                                                                   Page

Almquist, Katherine, former USAID Assistant Administrator for 
  Africa, Washington, DC.........................................     3
    Prepared statement...........................................     6
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Giffen, Alison, deputy director of the Future of Peace Operations 
  Program, The Henry L. Stimson Center, Washington, DC...........    11
    Prepared statement...........................................    13
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     3
Mozersky, David, associate director of Humanity United, Redwood 
  City, CA.......................................................    19
    Prepared statement...........................................    21
Richard, Anne, vice president for Government Relations and 
  Advocacy, International Rescue Committee, Washington, DC.......    24
    Prepared statement...........................................    26

                                 (iii)

  

 
       ASSESSING CHALLENGES AND OPPORTUNITIES FOR PEACE IN SUDAN

                              ----------                              


                        WEDNESDAY, MAY 26, 2010

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold (chairman of the subcommittee) presiding.
    Present: Senators Feingold, Isakson, and Wicker.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. The hearing will come to order.
    And on behalf of the Senate Foreign Relations Subcommittee 
on African Affairs, I welcome all of you to this hearing 
entitled ``Assessing Challenges and Opportunities for Peace in 
Sudan.''
    And, of course, I'm honored to be joined by the ranking 
member of this subcommittee, Senator Isakson. I'll invite him 
to deliver some opening remarks in just a moment.
    Today's hearing builds upon the hearing that our full 
committee held 2 weeks ago with the President's Special Envoy 
for Sudan, General Gration. The stakes are incredibly high as 
we move closer to Southern Sudan's vote on self-determination, 
which is set for January 2011.
    The hearing, 2 weeks ago, made clear that not enough 
progress has been made to resolve contentious issues and 
address governance and security challenges in advance of the 
referendum. I am glad the Obama administration is scaling up 
its diplomatic and programmatic efforts in this regard, but the 
time is short. I hope we will discuss, today, what specifically 
can and must be achieved over the next 8 months to increase the 
chances of a peaceful, orderly referendum process.
    On a related note, I am pleased that President Obama, on 
Monday, signed into law the LRA Disarmament and the Northern 
Uganda Recovery Act, a bill that I authored with Senator Sam 
Brownback.
    The Lord's Resistance Army is a transnational problem. 
They've wreaked havoc in Southern Sudan in the past. And their 
ability to do so in the future should not be underestimated. In 
fact, the Voice of America reported just last week that the LRA 
have launched new attacks in Southern Sudan. As preparations 
for the referendum continue, we need to consider the impact of 
this transnational threat, as well as others.
    Now, at the same time as we work toward peace in the South, 
we cannot lose sight of our priorities in Sudan, particularly 
in Darfur. Shortly after the full committee hearing, 2 weeks 
ago, the State Department released a statement condemning 
recent offensive actions by the Government of Sudan in Darfur. 
I was pleased to see this statement, but fighting in Darfur has 
reportedly continued. I hope we can discuss today how we can 
get back on track with a viable process toward peace in Darfur.
    Seven years on, millions of people remain displaced by the 
conflict in Darfur. They continue to face rampant insecurity, 
even if the fighting has changed in nature. This includes 
approximately 300,000 Darfurian refugees who now reside in 
eastern Chad.
    The U.N. peacekeeping mission, MINURCAT, is reportedly set 
to withdraw from eastern Chad, which could put those civilians 
in danger and restrict humanitarian access even further. 
Further endangering civilians is unacceptable, and the 
international community should work to ensure that there is a 
clear, viable strategy for their protection.
    Finally, while the elections may be over, we should 
continue to look for ways to push for an opening of democratic 
space, and for the civil and political rights of all Sudanese 
people. This is critical if we're to see the end of violence as 
an instrument of politics in Sudan.
    Given the already repressive environment in Northern Sudan, 
I am disappointed that the National Congress Party has cracked 
down on the media, several journalists, opposition leaders, and 
activists in the wake of the election. The international 
community should speak out forcefully against this new wave of 
repression.
    Now, we have a great lineup of witnesses this afternoon to 
discuss these issues.
    First we will hear from Katherine Almquist, former USAID 
Assistant Administrator for Africa. Ms. Almquist recently 
published a report, in the Council of Foreign Relations, on the 
likely triggers of renewed civil war in Sudan, and possible 
U.S. policy options. Ms. Almquist has extensive experience 
working on Sudan inside of government, as both a former USAID 
Assistant Administrator for Africa and former USAID Mission 
Director for Sudan. She has testified before this subcommittee 
before and I am pleased to welcome her back.
    Second, we will hear from Alison Giffen, deputy director of 
the Future of Peace Operations Program at the Stimson Center. 
In that role, Ms. Giffen is leading the program's efforts to 
strengthen civilian protection mechanisms and increase global 
preparedness to respond to mass atrocities. Ms. Giffen has more 
than a dozen years' experience monitoring and advocating on 
human rights and humanitarian issues. She previously served as 
Oxfam Great Britain's advocacy and strategy coordinator in 
Sudan.
    Next, we will hear from David Mozersky, associate director 
of Humanity United. Mr. Mozersky has been involved in conflict 
prevention work in Sudan and East Africa since 2001, with a 
specific interest in mediation efforts and regional peace 
processes. Before joining Humanity United, he worked for 6 
years for the International Crisis Group, covering Sudan; most 
recently, as the Horn of Africa project director.
    Finally, we will hear from Anne Richard, vice president for 
government relations and advocacy for the International Rescue 
Committee. The International Rescue Committee has been 
operating in Sudan since 1981, and currently helps more than 
450,000 people in Southern Sudan with essential services. IRC 
was also delivering humanitarian aid to around 2 million people 
in Darfur, North and East Sudan, until March 2009, when it was 
expelled by the Government of Sudan. Ms. Richard, herself, has 
extensive experience working on humanitarian issues, both 
inside and outside of government.
    So, I thank all of you for being here. I ask that you keep 
your remarks to 5 minutes or less so we have plenty of time for 
questions and discussion. And, of course, we'll submit your 
longer written statements for the record.
    It's now my pleasure to turn to my friend and distinguished 
ranking member, Senator Isakson, for his opening comments.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you very much, Chairman 
Feingold. And I would like to thank Chairman Kerry for the 
previous hearing we had, a few weeks ago, with General Gration.
    And I would note--General Gration, we appreciate you being 
in the audience today at this hearing. You're doing great work 
in the Sudan, and we appreciate it very much.
    I welcome our panelists today.
    Having visited Darfur and Sudan last year--in fact, almost 
this week last year, so it's been exactly a year ago--I am 
aware, firsthand, of the tragedy in Darfur, and also the 
tenuous nature of the North/South relations, as well as the 
critical date that's coming up very soon, in terms of the 
secession referendum, which I guess is scheduled for January.
    The potential for critical problems is tremendous, but 
there's potential for opportunity and hope, as well. And the 
United States needs to be a key player in trying to help the 
country, first, stay unified; and second, find some kind of a 
cure, if we can, for the tragedy that is taking place in 
Darfur.
    I welcome our panelists that are here to testify today. I 
look forward to your testimony.
    And, again, I thank the chairman for calling the hearing.
    Senator Feingold. Thank you, Senator Isakson.
    I welcome General Gration, as well. Thank him for his 
dedication.
    And now we'll begin with Ms. Almquist.

    STATEMENT OF KATHERINE ALMQUIST, FORMER USAID ASSISTANT 
            ADMINISTRATOR FOR AFRICA, WASHINGTON, DC

    Ms. Almquist. Thank you, Chairman Feingold and Senator 
Isakson, for having me here today.
    I would just like to note that the views I express today 
will be those of my own, and not the Africa Center or the 
National Defense University.
    Sudan faces the very real prospect of renewed violence 
between North and South over the next 12 to 18 months. Under 
the terms of the 2005 Comprehensive Peace Agreement, a 
referendum in Southern Sudan must be held by January 2011 to 
determine whether it remains united with the North or secedes 
from it.
    Given that popular sentiment in the South overwhelmingly 
favors secession, two basic scenarios are conceivable. The 
South secedes peacefully, through a credible referendum 
process, or the CPA collapses and the South returns to a fight 
for independence.
    The likely triggers of a renewed civil war between North 
and South concern the referenda on self-determination, border 
flashpoints, and oil. Renewed civil war will have far-reaching 
consequences for other parts of Sudan, as well, limiting the 
potential to address the situation in Darfur and to avoid 
potential conflicts in other marginalized areas of the North.
    Prospects for resolving the conflict in Darfur will dim 
further, and likely expire, in the event of a renewed North/
South war. In the event of the violent secession of the South, 
neither Khartoum nor the Darfur rebel movements will be 
motivated to seek their own meaningful negotiated settlement. 
Khartoum's tolerance of the U.N./AU peacekeeping mission in 
Darfur may cease. And delivery of food and other emergency 
assistance to more than 4.7 million Darfuris current reliance 
on international aid will be virtually impossible.
    As I'm sure we'll hear from the other witnesses, delivery 
of humanitarian assistance, at the present time, still remains 
a very dangerous and challenging proposition. The rising 
kidnappings of humanitarian workers and a tax on peacekeepers 
demonstrates the most fundamental challenge of Darfur that must 
still be addressed; that of security. Until basic security is 
restored, voluntary return of IDPs will not happen, and 
recovering reconstruction programs to stabilize Darfur and 
prepare for development will not be feasible.
    The risks of a violent breakup of the country are, 
therefore, immense. And yet, the scenario is by no means 
inevitable. Ultimately, the Sudanese will determine whether the 
country advances toward peace and stability, or declines into 
conflict and security.
    For its part, the Government of Southern Sudan must 
continue to demonstrate the political will and strength of 
leadership to confront the challenges of a nascent state, and 
to accept the massive external assistance it needs to help 
establish transparent, accountable, and durable institutions of 
governance. A frequently heard view is that a new state of 
Southern Sudan will not be viable, upon independence.
    It's noteworthy that the Government of Sudan is a mere 5 
years old, with very little legacy of governance to build on 
since Sudan's independence in 1956 or the colonial era 
preceding that. Expectations for the performance of this 
nascent state must be attenuated with the reality that no 
nation-state has developed its capacity to function in such 
recordbreaking time. Mistakes will be made, and sustained 
patience and partnership with the South will be needed as it 
assumes responsibilities for full sovereignty.
    With respect to the North, the key question to be answered, 
post-referendum, is whether the National Congress Party will 
use its control over the government to return to its original 
Islamist agenda, or will instead pursue the reforms mandated in 
the CPA for both North and South, to build a multiethnic, 
multicultural, multiparty, democratic, and decentralized state.
    Mr. Chairman, as the principal proponent and overseer of 
the CPA, the United States has a variety of near term and 
longer term policy measures it could adopt to help avert a 
renewed civil war and preserve its credibility as a peacemaker 
in Sudan and in Africa.
    The United States can best support the parties by helping 
to ensure an environment that motivates them to keep the peace. 
Washington can do this by focusing them, in the near term, on 
the critical outstanding issues: border demarcation, oil 
revenue-sharing arrangements, the resolution of citizenship 
status for southerners remaining in the North after 
independence, and vice versa; and the establishment of the 
Referenda Commission; and by generating ideas to break these 
logjams, if asked; and further, by articulating the minimum 
redlines for an internationally acceptable transition to post-
referendum status.
    Over the longer term, the United States should coordinate 
multilateral efforts among the international special envoys to 
Sudan, in developing a common agenda for focusing the parties 
on these critical issues pre- and post-referenda, and in close 
coordination with the AU's President Mbeki and U.N. SRSG, Haile 
Menkerios. Particular attention should also be paid to China, 
Egypt, and the Arab League, given their influence with 
Khartoum, along with Sudan's other neighbors. Ministerial-level 
attention, and higher, will be needed from the P5 and the 
international witnesses of the CPA to hold the parties to 
implement the final stages of the agreement.
    The United States should lead by example in recognizing the 
South will not remain peacefully united with the North after 
January 2011, and in preparing for an independent South. 
International support for self-determination should be 
unambiguously affirmed, without prejudice toward unity, and 
backed by preparations to recognize and assist an independent 
Southern Sudan. Time is of the essence.
    The United States should lay the foundation now for 
upgrading relationship with the Government of Southern Sudan, 
as soon as the outcome of the referendum is validated. It 
should also be prepared with an even greater assistance package 
than it has yet provided to support the southern government, as 
well as the state- and local-level institutions, and to spur 
economic growth.
    In a situation with a plethora of urgent needs, both the 
Government of Southern Sudan and its international partners 
need to pay greater attention to securing stability for the 
South. Thus far, much effort has been paid to the 
professionalization of the SPLA; and, while there is more left 
to be done in this regard, a similar commitment is needed to 
address critical law-and-order functions, such as policing and 
the judiciary.
    Mr. Chairman, whether South Sudan secedes violently or not, 
United States interests in Sudan will continue to be affected 
by Khartoum's calculations, and communicating the United States 
interest in fostering a more democratic, accountable government 
for the people of Northern Sudan, as well as in ensuring a 
stable, peaceful neighbor for an independent South, will be 
essential for managing this relationship.
    The trajectory of the bilateral relationship should be 
predicated on how the NCP treats the political opposition, 
civil society, and media; and on the government's willingness 
to transform, as demonstrated through its actions, in pursuit 
of peace in Darfur, popular consultations in Southern Kordofan 
and Blue Nile states; and in movement on key issues, such as 
land reform, security reform, civil service reform, 
decentralization, and freedom of the press, respect for human 
rights, and opening of political space.
    Within this context, and prior to the referenda, the 
administration should publicly begin a process to determine the 
restoration of full relations with Khartoum, and prepare for a 
focused development assistance package for Northern Sudan, 
pending the peaceful referenda in the South and Abyei and 
resolution of the conflict in Darfur.
    I'll close my remarks there.
    Thank you, Mr. Chairman, members of the committee. I look 
forward to your questions.
    [The prepared statement of Ms. Almquist follows:]

  Prepared Statement of Katherine J. Almquist, Former USAID Assistant 
                Administrator for Africa, Washington, DC

    Chairman Feingold, Senator Isakson and members of the subcommittee, 
thank you for giving me the opportunity to appear before you today to 
discuss the challenges and opportunities for peace in Sudan.
    Sudan faces the prospect of renewed violence between north and 
south over the next 12 to 18 months. Under the terms of the 2005 
Comprehensive Peace Agreement (CPA) that ended Sudan's bloody civil 
war--which claimed 2 million lives and displaced 4 million more--a 
referendum in southern Sudan must be held by January 2011 to determine 
whether it remains united with the north or secedes from it. Given that 
popular sentiment in the south overwhelmingly favors secession, two 
basic scenarios are conceivable: the south secedes peacefully through a 
credible referendum process or the CPA collapses and the south fights 
for independence. There is no scenario in which the south remains 
peacefully united with the north beyond 2011. Further complicating 
prospects for averting renewed violence are the ongoing conflict in 
Darfur and potential conflicts in other marginalized areas of the 
north. The violent secession of the south would hinder efforts to 
resolve these conflicts, as well as increase the prospect for greater 
internecine fighting among historic rivals in the south. The resulting 
significant loss of life and widespread political unrest would threaten 
regional stability and challenge U.S. interests in Africa.
    The likely triggers of renewed civil war between north and south 
over the next 12 to 18 months concern the referenda on self-
determination, border flashpoints, and oil. While ultimately the 
Sudanese will determine peace and stability or conflict and insecurity, 
Washington has at its disposal a variety of near term and longer term 
policy measures it could adopt to help avert a renewed civil war.
                            challenges ahead
    Renewed civil war in Sudan would present an acute policy challenge 
to the United States in Africa. A major new outbreak of violence, with 
all its attendant humanitarian consequences, would put considerable 
pressure on the United States to respond and prevent further bloodshed. 
The U.S. role as the principal broker of the CPA, the existence of 
widespread public concern in the United States on Darfur, and the 
concern that renewed conflict could spill over and destabilize 
neighboring countries add to these pressures.
    In the worst-case scenario, a renewed north-south conflict could 
plunge the country into a chaotic and deadly situation of total war if 
the political opposition and armed movements in the north, south, 
Darfur, and east organized and coordinated their combat strategies. In 
the more probable scenario of CPA collapse leading to a resumption of 
generalized north-south war or even a partial resumption of 
hostilities, the civilian toll is still likely to be high. Both the 
northern military--the Sudan Armed Forces (SAF)--and the southern 
military--the Sudan People's Liberation Army (SPLA)--are large land 
armies and have acquired advanced weaponry and training for their armed 
forces during the interim period. Khartoum retains air superiority over 
the south and can be expected to resume its bombing raids aimed at 
terrorizing civilians.
    Small arms remain pervasive throughout the civilian population in 
the south despite recent disarmament efforts by the Government of 
Southern Sudan (GOSS). Violence in southern Sudan is already rising at 
an alarming rate; in 2009, communal violence in the south surpassed the 
level of violence in Darfur, displacing some 350,000 people and killing 
more than 2,500. Khartoum is widely suspected of helping to foment this 
violence through its standard practice of destabilization through local 
proxy forces and should be expected to increase its nefarious activity 
in the south along these communal fault lines, as well as by providing 
ongoing support for the Lord's Resistance Army (LRA), in an effort to 
make the south appear ungovernable and therefore unfit for its 
referendum on self-determination. Finally, retributive violence against 
minorities in Khartoum, Juba, and other important cities in the north 
and south with a mix of populations (southerners living in the north 
and vice versa) can be expected in the event of the collapse of the CPA 
and a resumption of hostilities.
    The catastrophic humanitarian consequences of a violent secession 
will demand that the United States work closely with the United Nations 
and nongovernmental organizations (NGOs) to access needy populations 
throughout Sudan with food and emergency relief. Conditions for 
humanitarian relief will be difficult, if not impossible, in many 
areas. The NCP will likely cut off humanitarian access in the north and 
Darfur, ruling out international humanitarian relief efforts. In the 
south, humanitarian actors could revert to cross-border operations via 
Kenya and Uganda even without Khartoum's assent (as occurred during the 
civil war); humanitarian flights and convoys, however, would be again 
vulnerable to possible air attack.
    Prospects for resolving the conflict in Darfur will dim further and 
likely expire in the event of a renewed north-south war. Since the 
start of 2010, Khartoum has taken the offensive against two of the 
major outstanding rebel movements in Darfur, the Justice and Equality 
Movement (JEM) and the Sudan Liberation Movement-Abdul Wahid (SLM-AW). 
Similar to the outbreak of violence in Darfur in 2003 and its 
escalation in 2004, Khartoum appears to be banking that the focus of 
the international community--and particularly that of the United 
States--will be diverted to the CPA (in this case securing the 
referendum), allowing it to take more aggressive action in Darfur while 
continuing to participate in the peacemaking efforts of the U.N./AU 
joint mediator, Djibril Bassole, and the Qatari government in Doha.
    In the event of the violent secession of south Sudan, neither 
Khartoum nor the Darfur rebel movements will be motivated to seek a 
meaningful negotiated settlement. Khartoum's tolerance of the U.N.-AU 
mission in Darfur (UNAMID) may cease, and it may conclude that forcibly 
returning the 2.7 million IDPs to their homes is its best option to end 
international involvement in Darfur. At the same time, humanitarian 
access would become very difficult, if permitted at all, denying food 
and other emergency assistance to the more than 4.7 million people in 
Darfur currently reliant on international aid.
    As the principal proponent and overseer of the CPA, U.S. 
credibility as a peacemaker in Sudan and Africa will be affected by 
whether and how the United States supports the south's path to 
independence. Without the unequivocal support of the United States and 
the international community for the south's right to self-
determination, it will have no incentive to seek this peacefully and 
avoid renewed conflict. Moreover, the rebel movements in Darfur will 
conclude that the United States and the international community are not 
trustworthy guarantors of a settlement with Khartoum, thus eliminating 
the possibility of a political arrangement that restores stability in 
Darfur and allows the voluntary return of IDPs to their homes. In the 
wake of domestic advocacy campaigns on Darfur, pressure for greater 
U.S. action will grow at the same time that U.S. credibility and 
leverage in Sudan and the region is compromised.
    In the event that the referendum passes credibly, preparations will 
need to have been underway for a two-state reality. With respect to the 
south, a frequently heard view is that a new state of Southern Sudan 
will not be viable upon independence, given its weak institutional 
capacity, signs of corruption, and proclivity for communal violence. 
Yet it is noteworthy that the GOSS is a mere 5 years old, without any 
legacy of governance structures or physical infrastructure from the 
past 54 years of independence, or the preceding 50 years of colonial 
rule, on which to build. In nearly every sense the project of the GOSS, 
whether an autonomous region of a federated Sudan or a newly 
independent state, is one of nation and state construction, not 
reconstruction.
    Expectations for the performance of this nascent state must be 
attenuated with the reality that no nation-state has developed its 
capacity to function as a sovereign state in such recordbreaking time, 
and care must be taken to pace external demands with available 
resources and realistic timeframes. Mistakes will be made and decisions 
taken which do not fit into the box of international best practice, but 
so long as the fundamental aspirations of the southern Sudanese 
leadership are for the betterment of its people, as I believe they 
currently are, then sustained patience
and partnership are due to the GOSS as it assumes the responsibilities 
of full sovereignty.
    For its part, the GOSS must continue to demonstrate the political 
will and strength of leadership to confront the challenges of a nascent 
state entirely dependent on natural resource extraction and foreign 
assistance and to accept massive external assistance to help establish 
transparent, accountable, and durable institutions of governance. In a 
situation with a plethora of urgent needs, both the Government of 
Southern Sudan and its international partners need to pay greater 
attention to securing the stability of the south. Thus far, much effort 
has been paid to the professionalization of the SPLA, and while there 
is more left to be done in this regard, a similar commitment is needed 
to address critical law and order functions such as policing and the 
judiciary.
    With respect to the north, the key question to be answered post-
referendum is whether the National Congress Party (NCP) will use its 
control over the government to return to its original Islamist agenda 
or will instead pursue the reforms mandated in the CPA for both north 
and south--to build a multiethnic, multicultural, multiparty democratic 
and decentralized state.
                     triggers for violent outbreak
    The likely triggers of renewed civil war between north and south 
over the next 12 to 18 months concern the referenda on self-
determination, border flashpoints, and oil. Elections held in April 
2010 passed with limited violence, though they were seriously flawed 
and did not meet international standards of credibility.
The Referenda
    The clearest tripwire for return to war between north and south is 
delay of the Southern Sudan referendum beyond January 2011, or 
manipulation or denial of the results by the NCP. In addition to the 
referendum on independence for the south, the CPA also affords the 
volatile and oil-rich region of Abyei, historically part of the south 
but currently part of the north, its own referendum to decide whether 
to follow the south's decision or to stay in the north. Given Abyei's 
symbolic significance to Southern Sudan, any serious movement by the 
north or outside actors to postpone or defer either of these referenda 
could collapse the CPA and embolden those within the south who agitate 
for a unilateral declaration of independence. The SPLM leadership would 
be unable to resist popular pressure for such action, even though it 
would likely provoke the north to secure the oil fields militarily and 
to terminate transfers of oil revenues to the south, plunging the two 
parties back into war.
    The NCP's utmost concern is political survival, which assumes 
continued access to oil revenues and, ideally, would not entail a 
referendum on southern independence. At a minimum, the NCP will attempt 
to make the southern referendum as costly as possible for southerners, 
both to gain maximum leverage in post-referendum negotiations as well 
as to showcase its resistance to southern secession and the division of 
the country. If Khartoum assesses ambivalence or outright support from 
the international community in delaying the referenda, any inclination 
within the party to uphold the CPA will crumble and the likelihood of 
southern agitation in response to northern intransigence will mount.
    In two other contested areas in northern Sudan--the states of 
Southern Kordofan and Blue Nile--the CPA provides each a lesser option 
for popular consultations at the end of the interim period to review 
and possibly amend the constitutional, political, and administrative 
arrangements of these states with the national government; the CPA does 
not allow for these areas to participate in the south's referendum on 
independence in spite of their alliance with the south's struggle for 
self-determination. Dissatisfaction with being denied self-
determination combined with mounting disappointment with the popular 
consultation process due to delays and perceived manipulation will fuel 
hard-line sentiment to return to war in pursuit of a better solution 
for the former SPLM-held areas. Already state elections in Southern 
Kordofan have been postponed due to controversial census results and 
constituency demarcation; they must be conducted as quickly as possible 
after the census recount is completed in mid-June so that the process 
of popular consultation may move forward.
Border Flashpoints
    The CPA provides for the demarcation of the north-south border 
before the referendum takes place. At stake are the disposition of some 
of the most productive oil reserves in Sudan, constituency delimitation 
for the elections and referenda, and traditional access to land and 
grazing routes. A joint committee of the parties to resolve contested 
portions of the border has not finalized its work, with the four or 
five most contentious border issues outstanding (comprising some 20 
percent of the border) and awaiting resolution by the Presidency.
    During the interim period, both the SAF and the SPLA have rearmed 
and repositioned themselves along the border particularly around 
strategic oil fields. Joint Integrated Units of the two forces, as 
mandated by the CPA, exist in name only and are themselves sources of 
considerable volatility. As the end of the interim period nears, the 
chances of either accidental escalation through weak command and 
control of junior officers or intentional escalation to secure vital 
oil fields will rise. Numerous potential flashpoints exist; the most 
prominent of which centers on Abyei.
    In May 2008, the SAF's 31st brigade attacked the SPLA and burned 
the town center to the ground. Intense diplomatic pressure and the 
ruling of the Permanent Court of Arbitration in July 2009 helped to 
calm simmering tensions, but potential for conflict to flare between 
the African Ngok Dinka and the Arab Misseriya tribes, and by extension 
the SPLA and the SAF, remains high. The SAF's 31st brigade remains just 
north of the town. Further, the Misseriya are blocking the demarcation 
of Abyei's northern border, per the Permanent Court of Arbitration's 
ruling, and the U.N. mission in Sudan (UNMIS) has yet to gain 
peacekeeping access to the vital Heglig oil fields that are located in 
this area. Scaled-up presence and monitoring of UNMIS along the north-
south border is imperative as quickly as possible, as is resolution of 
its status in Blue Nile and Southern Kordofan post-referendum.
Oil
    Given that most of Sudan's currently active oil fields are on the 
southern side of the north-south border and that the only pipeline for 
transporting oil to the coast for export runs north to Port Sudan on 
the Red Sea, negotiation of acceptable terms for oil revenue sharing 
post-referendum, particularly in the eventuality of southern 
independence, will be a significant indicator of the prospects for a 
smooth referendum process and beyond. A basic deal between north and 
south will be imperative to secure the NCP's tolerance of the 
referendum process and respect for its outcome. Uncertainty about the 
dispensation of oil revenues and pipeline service fees will not only 
discourage NCP cooperation with a credible referendum process but 
encourage it to tighten its security around the active fields. This, in 
turn, will further provoke the SPLM to disrupt the pipeline or attack 
the oil fields; the NCP likely underestimates this risk, believing its 
control of the pipeline gives it ultimate leverage in oil revenue 
negotiations.
             recommendations for averting renewed civil war
    While there is immense risk of a violent breakup of the country, it 
is by no means inevitable. The Sudanese will determine peace and 
stability or conflict and insecurity. And yet Washington has at its 
disposal a variety of near-term and short-term policy measures it could 
adopt to help avert a renewed civil war.
    The least costly and most effective option for the United States 
would be to redouble bilateral and multilateral diplomatic action to 
provide pressure as well as incentives for the parties to honor their 
commitment to the CPA, which has provided peace--however temporary--
between north and south for the first time in 22 years and now needs to 
be consolidated through a credible referendum process. The 
administration maintains leverage over Khartoum because of the range of 
economic and political measures it has already imposed, vitiating 
Khartoum's international legitimacy, and it must sustain a unified 
message of incentives and pressures toward the NCP to achieve its 
objectives for Sudan as a whole.
    In the near term, the United States should lead by example in 
recognizing that the south will not remain peacefully united with the 
north after January 2011 and in preparing for an independent south. 
International support for self-determination should be unambiguously 
affirmed without prejudice toward unity, and it must be backed by 
preparations to recognize and assist an independent Southern Sudan. The 
United States should lay the foundation now for upgrading relations 
with the GOSS and nominating an ambassador as soon as the outcome of 
the referendum is validated. It should also be prepared with an even 
greater assistance package than it has yet provided, particularly to 
support the GOSS, state, and local level institutions of governance as 
well as to spur economic growth. Continued assistance to 
professionalize the SPLA will also be vital, as will even more 
assistance to build a competent police force and other institutions to 
maintain the rule of law, as I noted earlier.
    In the event of a violent secession, all nonhumanitarian assistance 
for an independent south should be contingent on a finding by the 
President, notified to Congress, that the south faithfully upheld its 
commitments under the CPA and that the south was not responsible for 
initiating the violence. The United States could further lead the donor 
community in mobilizing the resources for a post-referendum peace 
dividend, which is critical to securing stability in the south and 
building a capable, accountable government.
    The United States can best support the parties by helping to ensure 
an environment that motivates them to keep the peace. Washington can do 
this by focusing them in the near term on the critical outstanding 
issues, by generating ideas to break logjams if asked, and by 
articulating the minimum redlines for an internationally acceptable 
transition to post-referendum status. Prereferenda, the most critical 
issues are the demarcation of the 1,300-mile north-south border, oil 
revenue--sharing arrangements post-separation, and resolution of 
citizenship status for southerners remaining in the north after 
independence, and vice versa. Arrangements for the referenda and 
popular consultations are lagging, requiring critical attention and 
greater coordination of effort and resources to support the parties. 
The administration should not attempt to negotiate any of the 
outstanding issues, but it could deploy senior diplomats with 
relationships with key northern and southern leaders to nurture the 
transition process, in addition to the frequent visits of the 
President's special envoy and in close coordination with the African 
Union's President Mbeki and the United Nations' Special Representative 
of the Secretary General Haile Menkerios.
    As soon as possible, the U.N. Security Council should codify 
consensus expectations of the international community with respect to 
the final benchmarks of the CPA and closely oversee the readiness of 
the U.N. for the most likely contingencies. Specifically, the Security 
Council should reaffirm January 2011 as the date for the southern and 
Abyei referenda through a resolution or Presidential statement that 
details realistic penalties for each party if it were to renege on the 
CPA. It should also require a detailed transition plan from UNMIS, 
assuming an independent south; ensure that UNMIS is positioned at 
hotspots along the north-south border and inside Southern Sudan; and 
provide UNMIS with the resources and manning it needs to counter the 
threats to civilian life that are already present.
    The United States should lead the international community in 
pressing for the establishment of the commissions for the referenda as 
well as supporting their function; time is already short and technical 
preparations lag far behind. Concerted, coordinated, and public 
diplomatic pressure must be kept on the parties, particularly the NCP, 
to move expeditiously in establishing the Southern Sudan Referendum 
Commission and Abyei Referendum Commission and launching the popular 
consultations. A key element in this regard will be a competent, 
transparent, and timely complaint and dispute resolution process. 
Financial and technical support for the referenda must also be 
forthcoming from the international community.
    Over the longer term, the United States should lead multilateral 
efforts among the P5+1 (China, France, Russia, United Kingdom, United 
States, and European Union) special envoys to Sudan in developing a 
common agenda for focusing the parties on the critical issues pre- and 
post-referenda, in close coordination with President Mbeki and Haile 
Menkerios. Particular attention should also be paid to China, Egypt, 
and the Arab League given their influence with Khartoum, along with 
Sudan's other neighbors--Chad, Libya, Eritrea, Ethiopia, Kenya, Uganda, 
the Democratic Republic of the Congo, and the Central Africa Republic. 
Ministerial level intervention and focus from the P5+1 and the 
international witnesses of the CPA (Kenya and Uganda on behalf of IGAD, 
Egypt, Italy, Netherlands, Norway, United Kingdom, United States, 
African Union, European Union, IGAD Partners Forum, League of Arab 
States, United Nations) is critical to hold the parties to implement 
the final stages of the agreement and to carry forward its spirit of 
Sudan as a multiethnic, multicultural, diverse, decentralized, and 
democratic state through the national constitutional review processes 
that both northern and southern Sudan will each undergo following a 
vote for secession by the south.
    Whether south Sudan secedes violently or not, U.S. interests in 
Sudan will continue to be affected by Khartoum's calculations over the 
long term, and communicating the United States interest in fostering a 
more democratic, accountable government for the people of northern 
Sudan as well as in ensuring a stable, peaceful neighbor for an 
independent south will be essential for managing this relationship. The 
trajectory of the bilateral relationship should be predicated on how 
the NCP treats the political opposition, civil society, and media and 
on the government's willingness to transform as demonstrated through 
its actions in pursuit of peace in Darfur, popular consultations in 
Southern Kordofan and Blue Nile states, land reform, security reform, 
civil service reform, decentralization, freedom of the press, respect 
for human rights, and opening up of political space.
    Prior to the referenda, the administration should publicly begin a 
process to determine the restoration of full relations with Khartoum 
and prepare for a focused development assistance package for northern 
Sudan, pending the peaceful secession of the south and resolution of 
the conflict in Darfur. In the event that the President determines and 
notifies to Congress credible and peaceful referenda, as well as a 
political settlement and a return to stability in Darfur, the 
administration should then move forward with the development assistance 
package for the north and begin the process of repealing sanctions 
according to the specific requirements for which the sanctions were 
imposed.
    By contrast, if Khartoum reneges on its commitments in the CPA or 
promotes continued conflict in Darfur, U.S. assistance should be 
limited to humanitarian response, and the U.S. should seek further 
multilateral punitive economic and political measures against Khartoum. 
This should include pressing Sudan's European trading partners to adopt 
tougher commercial sanctions against the north if it reneges on the CPA 
(and to indicate their intent to do so prior to the referenda).
    A commonly held view is that Khartoum only responds to increased 
pressure; already many advocates are calling for threats of punitive 
action and further isolation to help prevent Khartoum from reneging on 
the southern referendum. This option could include bilateral threats of 
military action, such as threats to blockade Port Sudan, launch air 
strikes against strategic targets, or enforce a no-fly zone over the 
country. The value of making these threats depends on (1) Khartoum's 
perception of the likelihood of their implementation; (2) the 
effectiveness of the intended action on achieving its objective; and 
(3) the tradeoffs associated with each punitive measure.
    For instance, an effective blockade of Port Sudan would disrupt 
arms flows and major economic activity for the north, severely 
challenging the regime's survival. The impact of the blockade would 
need to be balanced, however, with the political and civil unrest 
likely to ensue in northern Sudan, the spillover effect on the south, 
and the economic harm the south would suffer from the loss of oil 
revenue. Another option is to impose a no-fly zone over parts of Sudan. 
Given the size and location of the country, however, most military 
analysts assess it would be difficult for the U.S. Government or allied 
forces to sustain such an operation. Any military options would be 
costly for the United States at a time when military resources and 
political capital, particularly in the Muslim world, are stretched 
thin. In light of these factors, Khartoum is likely to conclude that 
Washington will not follow through on military threats, and it will 
correctly assume that the U.N. Security Council will not back 
multilateral military action given the veto power of China and Russia--
two of Khartoum's principal arms suppliers and, in the case of China, 
Sudan's largest trading partner.
    Some also advocate other multilateral punitive actions, such as the 
threat of tougher sanctions and/or the imposition of a full arms 
embargo against Sudan. Support in the U.N. Security Council is 
similarly unlikely, however. Even if consensus could be reached in the 
Security Council, Khartoum's largest arms supplier is Iran, for whom 
U.N.-imposed embargoes are meaningless; any arms embargo would 
therefore be partial at best and would likely disproportionately affect 
the south.

    Senator Feingold. Thank you, Ms. Almquist.
    And I want to acknowledge we're joined by Senator Wicker, 
and thank him for engaging me and so many members of the 
committee on this issue frequently. And I'm very pleased to be 
working with him on this issue, as well.
    Ms. Giffen.

 STATEMENT OF ALISON GIFFEN, DEPUTY DIRECTOR OF THE FUTURE OF 
    PEACE OPERATIONS PROGRAM, THE HENRY L. STIMSON CENTER, 
                         WASHINGTON, DC

    Ms. Giffen. Chairman Feingold, Senator Isakson, and members 
of the Senate Committee on Foreign Relations Subcommittee on 
African Affairs, thank you for the opportunity to join this 
important and timely discussion on assessing challenges and 
opportunities for peace in Sudan.
    I am pleased that the subcommittee is looking at this issue 
through a whole-of-Sudan lens. Shifting attention of the 
international community from one Sudan crisis to another has 
undermined initial investments in sustainable progress toward 
peace for the whole country.
    A comprehensive approach is critical and will be a theme 
that I will return to throughout my remarks.
    As you know, Sudan's history has been marked by two civil 
wars and various local and regional conflicts. This has left 
the country with very few years of experience with peace, and 
an overreliance on militaries, militias, and proxies to 
maintain control within its borders.
    Although the 2005 peace deal was called the Comprehensive 
Peace Agreement, it failed to address the decade-long conflict 
in Eastern Sudan, the then-raging conflict in the western 
region of Darfur, and the many violent fractures within the 
SPLA and with other organized militia and armed actors 
throughout the South. Finally, it failed to address the 
involvement of neighboring actors in these various conflicts.
    Outright conflict between the major parties of the CPA is a 
major threat to regional and international security, going 
forward. However, the fragile or failed follow-on deals aimed 
at solving these regional and local conflicts are just as 
likely to unravel into widespread violence against civilians.
    Success in Sudan requires juggling competing and sometimes 
contradictory policy priorities. For example, we need to take 
immediate steps to help guard against various undesirable 
scenarios related to the 2011 referenda while we continue to 
invest in longer term solutions.
    My remarks today will focus on three immediate actions that 
the international community should take during the narrow 
window of opportunity leading up to and following the 
referendum in January 2011 for prevention and mitigation of 
widespread violence.
    I've included more detail on the challenges Sudan faces, 
and recommendations for investment in sustainable security over 
the long term, in my testimony submitted for the record.
    As we look toward the 2011 referenda, the government's 
capacity and will in Northern and Southern Sudan remain 
insufficient to prevent and mitigate widescale violence.
    Unfortunately, the safety net that civil society, U.N. 
peacekeeping operations, and international aid agencies can 
sometimes provide, in the absence of state capacity, has 
alarming gaps in the case of Sudan. But, the international 
community has time to take steps that could bolster security, 
and prevent or mitigate outbreaks of violence against 
civilians.
    First, we must raise awareness of national security forces' 
responsibilities and obligations under law. Donors, including 
the United States, should ensure that the Government of 
Southern Sudan's police and army are receiving training in 
international humanitarian law, refugee law, and domestic and 
international human rights law, including training in 
preventing and fighting sexual violence.
    The training should be scenario-based and appropriate to 
forces with high rates of illiteracy. Although there is 
inadequate time before the referenda to fully professionalize 
these forces, such training may help to sensitize security 
forces to their responsibilities and obligations under domestic 
and international law.
    Second, we must improve peacekeeping operations' ability to 
protect civilians under threat. Although the U.N. Security 
Council has helpfully prioritized protection in UNAMID's and 
UNMIS's current mandates, the missions lack the assets, 
mobility, and flexibility to effectively execute this 
objective.
    UNAMID and UNMIS should develop comprehensive missionwide 
protection strategies. Their current strategies are neither 
comprehensive nor effective. UNMIS and UNAMID should develop 
contingency plans for possible scenarios, including worst-case 
scenarios that can be taken off the shelf for immediate 
implementation. UNMIS should expand the use of temporary 
operating bases and long-range patrols to reach areas where 
violence is likely to erupt.
    Third, we must increase access to vulnerable populations 
and potential crisis areas. One of the greatest challenges to 
international crisis prevention and response efforts, 
throughout Sudan, is the inability to access vulnerable 
populations.
    In addition to the role that the U.N. peacekeeping 
operations have in maintaining stability and access, high-level 
diplomacy by the U.N., special envoys, and other international 
actors, is key to negotiating access with the Government of 
Sudan or other armed actors, and monitoring compliance over the 
coming year.
    I have focused my remarks on immediate steps that the 
international community can take, in relation to domestic and 
international security forces, during what will likely be a 
volatile time. These activities should not be pursued at the 
expense of other political lines of effort. I cannot stress 
enough the important role of diplomacy at the strategic and 
national level, complemented by conflict negotiation and 
mediation at the local and national level. Nevertheless, I will 
leave a discussion of the role of strategic-level political 
efforts for other witnesses to address in greater detail.
    Thank you for continuing to bring attention to the 
challenges and opportunities for peace in Sudan through 
hearings like this. I am honored to have been asked to testify 
and I welcome your questions.
    [The prepared statement of Ms. Giffen follows:]

 Prepared Statement of Alison Giffen, Deputy Director, Future of Peace 
    Operations Program, The Henry L. Stimson Center, Washington, DC

    Chairman Feingold, Senator Isakson, and members of the Senate 
Committee on Foreign Relations Subcommittee on African Affairs, thank 
you for the opportunity to join this important and timely discussion 
on, ``Assessing Challenges and Opportunities for Peace in Sudan.''
    I am pleased that the subcommittee is looking at this issue through 
a ``whole-of-Sudan lens.'' A comprehensive approach is a critical 
component to achieving sustainable peace and security, and will be a 
theme that I will come back to often in my remarks.
    As you know, Sudan's history has been marked by two civil wars, and 
various local and regional conflicts. This has left the country with 
very few years of experience with peace, and an overreliance on 
militaries, militias, and proxies to maintain control within Sudan's 
borders. Although the deal that brought an end to the active conflict 
between the Government of Sudan (GOS) and the Sudan People's Liberation 
Army (SPLA) in 2005 was called the Comprehensive Peace Agreement (CPA), 
it failed to address the decade-long conflict in eastern Sudan, the 
then-raging conflict in the western region of Darfur, and the many 
fractures within the SPLA and other organized militia and armed actors.
    There have been many subsequent efforts to address these security 
challenges, but they have yielded mixed results. The Juba Declaration 
(January 2006) paved the way for more than a dozen warring militias to 
be integrated into the SPLA.\1\ The Darfur Peace Agreement (May 2006) 
was stillborn and was followed by a proliferation of armed actors. The 
East Sudan Peace Agreement (October 2006) resulted in tenuous peace, 
although wealth and governance reform dividends remain largely 
undelivered. Outright conflict between the major parties to the CPA is 
a major threat to regional and international security. However, these 
fragile follow-on security deals at the local and regional level are as 
likely to unravel into widespread violence against civilians and 
humanitarian crises. Finally, the shifting attention of the 
international community from one Sudan crisis to another has undermined 
initial investments in sustainable progress toward peace for the whole 
country.
---------------------------------------------------------------------------
    \1\ John Young. ``South Sudan Defence Forces in the Wake of the 
Juba Declaration.'' Geneva: Small Arms Survey, Graduate Institute of 
International Studies, 2006.
---------------------------------------------------------------------------
    Success in Sudan requires talent, persistence, and investment to 
juggle competing, and sometimes contradictory, policy priorities. For 
example, we must be able to identify and address the various 
flashpoints for violence throughout Sudan. Each requires a tailored 
response at the local level. At the same time, we must remain attentive 
to the relationships between local conflicts, and national and regional 
dynamics. And we need to take immediate steps to help guard against 
various undesirable scenarios related to the 2011 referenda, while we 
continue to invest in longer term solutions.
    This testimony will explore three potential triggers of widespread 
violence in Sudan, immediate steps the United States and international 
community should take in the months leading up to and following the 
referenda to prevent and mitigate widespread violence as well as longer 
term steps that should be pursued to achieve sustainable peace and 
security in Sudan.
                          challenges to peace
    There are three major areas of potential wide-scale violence in 
Sudan over the coming years:
    (1) Between northern and southern Sudan: The 5-year interim period 
between the signing of the CPA and the expected 2011 referenda was 
designed to give the main parties additional time to build trust and 
negotiate some of the most sensitive issues including how to manage a 
census, elections, border demarcation, and ultimately the referenda. 
However, 5 years was not enough time to make unity attractive, build a 
functioning government in Southern Sudan and the transitional areas, 
and reform the security sector. Moreover, there was little incentive 
for the major parties to adhere to the CPA's foundational security 
protocols, namely to disarm and demobilize, in the face of unfinished 
negotiations and when trust between parties remained precarious.
    In direct contravention of the security protocols, the parties have 
reportedly continued to arm and move provocatively toward sensitive 
border areas. As evidenced in Abyei and Malakal, with tensions high, 
small clashes between even low-ranking members of the armed forces have 
the potential to escalate quickly into widespread violence. Local 
tensions over land and resources in areas along the still-undetermined 
north-south border are also incendiary. These communities were armed 
and used as proxies by the main parties throughout the civil war. 
Rumors abound that the parties are arming and stoking the flames 
between rival tribes and communities. Whether or not the rumors are 
true, community perceptions could serve as accelerants to conflict. 
Tensions are simmering between parties and within communities. A number 
of forthcoming benchmarks including: border demarcation, negotiation of 
resource rights, the implementation and results of an ill-defined and 
little-understood popular consultation process in Southern Kordofan and 
Blue Nile, and the process leading up to and following the referenda 
for Abyei and Southern Sudan could all spark violence at the local, and 
subsequently national level.
    (2) In southern Sudan: Southern Sudanese expectations have been 
hard to meet during the interim period, given the level of need, and 
the resources and time available to meet them. In building a government 
virtually from scratch in Southern Sudan, international efforts and 
funding were slow to get off the ground. Initiatives focused on 
strengthening the capacity of the central government in Juba. These 
efforts occurred at the expense of the state and local governments 
despite the fact that these government institutions are the most 
appropriate and effective at providing essential services and security.
    Similarly, security sector reform (SSR) has focused on the army at 
the expense of the police and judiciary. Inattention to the police is 
particularly troubling given the way demobilization was pursued in 
Southern Sudan. In an attempt to decrease the ranks of the SPLA, SSR 
programs have led to the demobilization of the army into the police, 
resulting in a Southern Sudan Police Service (SSPS) that is untrained 
in civilian safety and security measures. An additional challenge to 
training and executing basic police tasks is the 90 percent illiteracy 
rate of the SSPS. Moreover, the growing SSPS payroll, a result of the 
influx of demobilized SPLA, saps resources that could pay for equipment 
and training.\2\
---------------------------------------------------------------------------
    \2\ Alfred Sebit Lokuji, Abraham Sewonet Abatneh, Chaplain Kenyi 
Wani. ``Police Reform in Southern Sudan.'' The North South Institute. 
June 2009.
---------------------------------------------------------------------------
    Given the absence of a functioning police force, Southern Sudanese 
communities continue to rely on the SPLA, the United Nations Mission in 
Southern Sudan (UNMIS), traditional leaders, and--due to the 
availability of small arms and weapons--the arming of their own 
communities for security. The proliferation of small arms in a vacuum 
of state security has resulted in increasingly deadly conflicts over 
cattle and resources, conflicts that last year killed 2,500 people, 
displaced more than 390,000, while increasingly targeting women, 
children, and the elderly.\3\ The overreliance on the SPLA for internal 
security, and lack of appropriate laws and governance structures has 
also led to tensions and clashes between the SPLA and SSPS.
---------------------------------------------------------------------------
    \3\ Joint NGO Briefing Paper January 2010, ``Rescuing the Peace in 
Southern Sudan.'' U.N. OCHA, Humanitarian Update Southern Sudan Issue 
No. 1, 17 February 2010.
---------------------------------------------------------------------------
    Despite the focus on reforming the SPLA, the integration of 
militias into the SPLA resulted in a large force that is difficult to 
feed and equip, let alone professionalize. Integrated militias and 
individual soldiers unhappy with their salaries (which are not paid, 
delayed, or are skimmed by superiors) continue to prey on the 
communities they are meant to protect, resulting in violence against 
civilians and community mistrust.
    (3) In northern Sudan: The biggest security challenge in northern 
Sudan remains a centralized, opaque, and oppressive government without 
the will or capacity to provide security and essential services in an 
equitable and accountable manner. The most evident symptom of this 
threat is the ongoing--and I want to emphasize the nature of 
``ongoing''--conflict in Darfur. Though the conflict changed from the 
initial period of 2004, it has remained largely the same since 2006. 
The epicenter of violence shifts, and erupted most recently in Jebel 
Marra and Jebel Moon. Armed actors continue to splinter and 
proliferate, and attacks against civilians persist.
    The parties to the conflict are keenly aware of the power of 
information and perception. They have gone to great lengths to control 
information, as evidenced by the continued restrictions on access to 
conflict areas, most recently Jebel Moon. Space for civil society, the 
press, and international NGOs to operate in northern Sudan opens and 
closes at the will of the GOS. The government in northern Sudan has 
systematically silenced and slowly chipped away at independent civil 
society, the press, international aid agencies, and the United Nations.
    The expulsion of 13 humanitarian agencies and the dissolution of 
three national NGOs on March 4, 2009, targeted organizations providing 
protection programming for communities, humanitarian coordination, and 
information on threats to, and vulnerabilities of, civilians 
(activities that are fundamental to effective humanitarian assistance). 
While large scale death was adverted, the expulsions severely 
undermined the quality of assistance and protection programming 
throughout northern Sudan (including post-conflict eastern Sudan and 
the transitional areas). The expulsions also undercut the gathering and 
reporting of information about threats to, and vulnerabilities of, 
communities. This kind of information is key to preventing and 
responding to protection threats, and to the kind of contingency 
planning that needs to occur in preparation for and the wake of the 
2011 referenda. Moreover, the increasing insecurity and attacks against 
humanitarians and the U.N. has resulted in a diminished presence 
outside of the main cities, undermining the delivery of essential 
services and information about dynamics on the ground. A tree that 
falls in the forest does make a sound even if there are no 
internationals there to hear it. Conflict, violence against civilians 
and humanitarian needs persist in Darfur even if there are no 
internationals monitoring or reporting it.
    The root causes of Sudan's conflicts--including the monopolization 
of power and resources among a minority, a system maintained through 
marginalization and oppression--will continue to undermine progress in 
negotiations on Darfur, and risk sparking renewed conflict and 
humanitarian crises in other marginalized areas of northern Sudan.
    As we look toward the 2011 referenda, the governments' capacity and 
will in northern and southern Sudan remain unable to prevent and 
mitigate wide-scale violence on their own. Unfortunately, the safety 
net that civil society, U.N. peacekeeping operations, and international 
aid agencies can sometimes provide in the absence of state capacity has 
alarming gaps.
                 immediate steps to prevent and protect
    The concept of protecting civilians is broad and evolving. The term 
is used by diverse stakeholders to describe efforts to protect 
civilians from physical violence, secure their rights to access 
essential services, and create a secure environment for civilians over 
the long term. Armed actors have a dual responsibility to protect 
civilians. At a minimum, in the case of armed conflict, armed actors 
must adhere to international humanitarian law in, and abide by, 
domestic and international human rights and criminal law in cases that 
don't reach the threshold of armed conflict. However, third-party 
military operations are increasingly tasked with proactively protecting 
civilians in the midst of conflict by preventing or responding to 
threats and attacks against civilians.
    Raise awareness of national security forces' responsibilities and 
obligations under law: Donors, including the United States, should 
ensure that the Government of Southern Sudan's (GOSS) police and army 
are receiving training in international humanitarian law, refugee law, 
and domestic and international human rights law, including training in 
preventing and fighting sexual violence. The training should be 
scenario-based and appropriate to forces with high rates of illiteracy. 
Although there is inadequate time before potential conflict related to 
the CPA benchmarks and referenda to fully professionalize these forces, 
such training may help to sensitize SPLA troops and SSPS officers to 
their responsibilities and obligations under domestic and international 
law. The ICRC, as well as appropriate U.N. and other international 
agencies, should continue efforts to raise awareness of security forces 
and other armed actors in northern Sudan of their obligations under 
domestic and international law.
    Improve peacekeeping operations' ability to protect civilians under 
threat: UNMIS and the African Union/United Nations Hybrid Operation in 
Darfur (UNAMID) are tasked with providing proactive protection to 
prevent violence against civilians in their areas of operation. Both 
UNAMID and UNMIS have taken notable steps to implement this task. Both 
missions have developed protection strategies and the civilian and/or 
military leadership of these operations have issued protection 
directives. Unfortunately, the protection strategies were not 
comprehensive, and as such, did not provide adequate guidance to 
personnel executing them. Further, a lack of training on how best to 
develop, prioritize, and interpret these protection strategies and 
related directives has undermined effective implementation.
    Although the U.N. Security Council has helpfully prioritized 
protection in UNAMID's and UNMIS's current mandates, the missions lack 
the assets, mobility, and flexibility to effectively execute this 
objective. Information gathering, analysis, and sharing on protection 
threats and vulnerabilities--the starting point to providing effective 
protection--remains inadequate. Finally, civilian and military 
components tasked with protection, including the ground troops, lack an 
understanding of their mandate and often have no background or training 
on what protection means in practice.
    There is insufficient time, international will, and resources to 
overhaul UNAMID and UNMIS in advance of the referenda.\4\ However, 
there are steps that can and must be taken in coming months.
---------------------------------------------------------------------------
    \4\ Erin A. Weir and Limnyuy Konglim, ``Sudan: No Complacency on 
Protecting Civilians.'' Refugees International, 8 April 2010.
---------------------------------------------------------------------------
    First, UNAMID and UNMIS should develop comprehensive missionwide 
protection strategies. Developing and implementing such strategies 
requires consultation horizontally across the various civilian and 
military components of a mission, and vertically between the tactical 
and the strategic level. The missions' leadership and the U.N. 
Secretariat need to discuss the missionwide strategy and/or other 
directives to protect with troop and police contributing countries to 
ensure they are willing to undertake these tasks and are trained 
accordingly.
    An early version of UNAMID's 2010 protection strategy demonstrated 
a lack of consultation with key protection actors external to the 
mission. The draft strategy had a misplaced emphasis on creating 
conditions for recovery, development, and returns, rather than focusing 
on protecting civilians from immediate threats of physical violence. 
Although the status quo cannot continue, moving to recovery and return 
amidst active conflict over scarce resources and land risks spreading/
intensifying conflict. Moreover, many of Sudan's internally displaced 
and refugees may be unable or unwilling to return home given the lack 
of land reform, lack of services, and loss of traditional methods of 
livelihood and income generation.
    Producing a comprehensive missionwide strategy is an end in itself. 
Effective protection is dependent on a network of protection 
stakeholders within and outside a peacekeeping mission, including 
humanitarian actors and the communities under threat. Developing the 
strategy can create trust, lines of communication for gathering and 
sharing information, and innovative ways to leverage scarce resources--
all critical tools in the face of crisis and escalating violence. 
Neither UNAMID nor UNMIS will be able to predict, prevent, or respond 
to every protection threat in their areas of responsibility, but they 
can effectively prepare to prevent and respond to rising insecurity and 
violence against civilians, based on appropriate intelligence and early 
warning.
    Second, UNMIS and UNAMID should develop contingency plans for 
possible scenarios, including worse-case scenarios that can be taken 
off the shelf for immediate implementation. Such planning can help an 
underresourced mission predict and preposition in potential areas of 
conflict. UNMIS's preparation in advance of the Abyei border 
demarcation did just that.
    Third, UNMIS should expand the use of temporary operating bases and 
long-range patrols to reach areas where violence is likely to erupt. 
UNMIS has used long-range patrols and temporary operating bases in the 
past to prevent and mitigate tribal violence. These tactics do more 
than deter violence through their presence. They often include a mix of 
civilian and military efforts that provide mediation and diffuse 
tensions. These contingency plans must be developed in consultation 
with communities, local authorities and government officials (when 
appropriate), and international humanitarian and development actors 
within and across the two missions.
    Increase access to vulnerable populations and potential crisis 
areas: One of the greatest challenges to international crisis 
prevention and response efforts throughout Sudan is the inability to 
access vulnerable populations. A lack of infrastructure (particularly 
in the transitional areas and southern Sudan) and lawlessness combined 
with government or armed actor obstruction of access (particularly in 
the north) keep many areas of Sudan out of reach. Increased access 
could enable the delivery of essential services and peace dividends in 
a way that can mitigate, rather than exacerbate, competition over 
already scarce resources. When conflict has erupted, access is critical 
to evacuating international staff, providing safe areas for civilians, 
and providing services that prevent other negative humanitarian 
consequences. The U.N. peacekeeping operations have a role to play in 
maintaining stability and security to enable access. In addition, high-
level diplomacy by the U.N., special envoys, and other international 
actors is key to negotiating access with the Government of Sudan or 
other armed actors and monitoring compliance over the coming year. 
Moreover, the international community should be planning and 
negotiating with communities and government officials to establish 
potential safe areas for civilians to use, and in which essential goods 
and services might be prepositioned.
    I have focused my remarks on immediate steps that the international 
community can take in relation to domestic and international security 
forces during what will likely be a volatile time. These activities 
should not be pursued at the expense of other political lines of 
effort. In fact, to be effective, they must be nested in political 
strategies. I cannot stress enough the important role of diplomacy at 
the strategic and national level, as well as conflict negotiation and 
mediation at the local and national level. Nevertheless, I will leave a 
discussion of the role of strategic-level political efforts for other 
witnesses to address in greater detail.
                  investing in the long-term security
    If there is a relatively peaceful outcome following the referenda, 
the need for SSR in southern Sudan should continue. SSR programs have 
thus far been late in supporting the development of: (1) Effective 
security strategies, and (2) management, governance, and oversight 
structures. Best practice demonstrates that effective SSR begins with 
national consultations on every level (from community leaders and the 
public to the highest political and security levels) to develop and 
coalesce a national conception of security. Such a process helps to 
foster domestic ownership and lead to the development of an effective 
security strategy. The United States should coordinate with other 
donors to ensure these foundational elements are a priority following 
the interim period.
    Donors should increasingly focus on creating domestic capacity for 
police training, mentoring, and oversight. Donors should also provide 
technical assistance to the Ministry of Interior, but they must 
increasingly look toward the decentralization of these organs to the 
state and local level.
    Civilian disarmament will also be key to longer term security. 
Disarmament is most effective when: (1) The reach of state security 
services is extended and able to address security needs, and (2) a 
comprehensive approach is taken to disarm communities simultaneously 
and voluntarily. Developing and implementing a comprehensive strategy 
that crosses states takes time because it requires understanding 
dynamics and tensions between communities, identifying how supply and 
demand works across borders, and building trust between stakeholders in 
the process.\5\ Without functioning state security organs, civilians 
will be reluctant to disarm over the next year at a time of increasing 
tension. Doing so in an ad hoc approach can leave communities 
vulnerable to attack. The ad hoc, forced disarmament initiatives 
undertaken by the SPLA has resulted in violence. The international 
community should continue to discourage this approach.
---------------------------------------------------------------------------
    \5\ The Center for International Governance Innovation, ``Security 
Sector Reform Monitor, Southern Sudan,'' April 2010, No. 2.
---------------------------------------------------------------------------
    Finally, land reform and negotiation of resource use and 
distribution is critical to sustainable security. Laws governing land 
ownership and the exploitation of those laws have been a root cause of 
conflict. In addition to acting as a root cause and current driver of 
the conflict in Darfur, large portions of the population have been 
displaced into densely populated environments, overstretching scarce 
resources, such as water. This must be addressed in any peace 
agreement. Successful land reform will hinge upon the inclusion of 
civil society in the dialogue.
    Other war-affected areas in Sudan are also affected by land and 
resource issues. Migration routes continue to be a nexus for tension 
and violence during the dry season, and have been exploited and 
manipulated by parties to conflicts. In some areas of southern Sudan, 
SPLA soldiers continue to occupy land and extract resources as payment 
for liberating the area. Mass movements of the population to urban 
centers seeking economic opportunities or fleeing violence over 
previous decades have created marginalized communities vulnerable to 
further displacement, abuse, and depredation.
    Finding ways to allow resource sharing of oil revenues at the 
national and state level is important, as Sudan's GDP remains dependant 
on oil revenues. Nevertheless, the use and distribution of land and 
other resources at the local level is critical.
                        u.s. policy toward sudan
    Sudan's challenges are complex and any opportunities for success 
will involve multiple stakeholders. Under past administrations and in 
the early months of this administration, the United States Government 
failed to communicate and coordinate effectively with other allies. In 
the past, failure to coordinate approached to Sudan among international 
allies has diluted diplomatic resources, and left fractures in the 
international community prone to exploitation by the Government of 
Sudan and other parties to Sudan's multiple conflicts. However, I have 
been encouraged by the development and implementation of U.S. policy 
over the past 6 months, as it appears to be increasingly coordinated 
internally and with other allies and stakeholders.
    U.S. policy toward Sudan is at its most effective when coordinated 
with the United Nations, the five permanent members of the U.N. 
Security Council, members of the AU and League of Arab States, and 
countries neighboring Sudan. U.S. Special Envoy Jonathan Scott 
Gration's efforts to communicate and coordinate with other special 
envoys is a welcome step. Similarly, humanitarian assistance and 
development aid is most effective when delivered in coordination with 
other donors, especially during difficult economic times.
    I have witnessed the impact on the ground of constructive, 
coordinated U.S. diplomacy and aid. Humanitarian access in Darfur was 
gradually opened in 2005 due to joint efforts of donors and the United 
Nations. Diminished access and operating space is in part a result of 
disinvestment in high-level monitoring mechanisms. Quick and 
coordinated diplomatic action helped prevent a protection crisis in 
Kalma camp in September 2007, when the Government of Sudan introduced 
plans to forcefully disarm the camp. Kalma camp hosts over 80,000 
displaced persons, and a government advancement on the camp would have 
resulted in forced displacement and death as demonstrated in the 
government incursion on Kalma Camp in August 2008.\6\
---------------------------------------------------------------------------
    \6\ On 25 August, government security forces surrounded Kalma Camp, 
one of Darfur's largest camps for internally displaced persons. The 
government asserted the operation was a move to forcefully disarm 
individuals that were reportedly armed within the camp. UNAMID 
condemned the government's use of excessive force during the operation, 
which resulted in 64 killed, 117 wounded, and obstructed humanitarian 
access.
---------------------------------------------------------------------------
    I have been particularly impressed and encouraged by this 
administration's interest in improving institutions and mechanisms--
including peacekeeping operations--to effectively protect civilians. 
U.S. efforts under the previous administration in combination with 
other donors proved to be essential to ensuring greater resources for, 
and attention to, the protection of civilians by both UNAMID and UNMIS. 
However, we are still in early stages of this administration's policy 
implementation, and have yet to see real results on the ground in 
Sudan.
    Preventing and mitigating conflict in Sudan is important to 
regional and international security. The coming year presents 
particular risks.

    Senator Feingold. Thank you very much, Ms. Giffen.
    Mr. Mozersky.

  STATEMENT OF DAVID MOZERSKY, ASSOCIATE DIRECTOR OF HUMANITY 
                    UNITED, REDWOOD CITY, CA

    Mr. Mozersky. Thank you, Mr. Chairman, Senator Isakson, and 
other members of the committee, for the opportunity to testify 
today at this important time for the people of Sudan.
    I have a written statement, and ask that it be included in 
the record in its entirety.
    Sudan is facing challenges of a historic magnitude. 
Southern Sudan's self-determination referendum, in January 
2011, will likely create--likely result in the creation of a 
new country in the south. And ensuring that events unfold 
peacefully will require sustained and high-level leadership 
from the U.S. Government, and more consistent coordination 
among the broader international community.
    As a guarantor of the 2005 Comprehensive Peace Agreement 
and author of the Abyei Protocol, the United States has a 
unique responsibility and role to play.
    There's a genuine risk of renewed North/South war in the 
months ahead. Southerners are expected to vote for secession in 
January's referendum, if the vote is free and fair. Most 
Southern Sudanese and the Southern ruling SPLM view the January 
9 vote as set in stone. And any attempts to delay or manipulate 
the vote will be a shortcut back to war.
    Pushing against this political deadline is a complex 
technical process leading up to the referendum, with a 
significant number of steps still to be agreed to and 
implemented, while the relationship between the parties 
continues to suffer from intense mistrust.
    Given the absolute southern commitment to the January date 
and the high risk of conflict that would flow from any 
backsliding, I would urge the U.S. Government to be vocal--
early, often, and at the highest level possible--in reaffirming 
its commitment to seeing that the referendum is held on time, 
and the outcome respected. Vice President Biden's upcoming trip 
to Africa is a good place to start this process.
    Despite these challenges, openings exist to help promote a 
sustainable peace, whatever the outcome of the referendum. 
Allow me to briefly outline three conflict-prevention 
opportunities.
    The first is to support early negotiations between North 
and South on post-referendum arrangements. Early negotiations 
can provide guarantees to the governments in Juba and Khartoum, 
as well as affected communities, that their core interests and 
livelihoods will continue to be protected, regardless of the 
outcome of the vote. We should be pushing for mutually 
beneficial arrangements that encourage continued cooperation 
and peaceful engagement between the two sides.
    The importance of early dialogue is most obvious in the oil 
sector. The bulk of Sudan's oil lies in the South, yet the sole 
pipeline passes through the north. Failure to reach a deal 
could lead to fears in the north that the referendum will mean 
economic suicide or lead to a collapse of government revenue-
generation in the South, either of which would make a return to 
war more plausible.
    An equally important discussion is on issues of citizenship 
and nationality. There are worrying signs about the status of 
the 1.5 million southerners in the north, including the risk of 
massive forcible displacement back to the South. While 
citizenship criteria will be the sovereign choice for the 
government, the international community must ensure that, at a 
minimum, there are guarantees for sufficient protection of 
minority rights. Humanitarian contingency planning should also 
be prioritized, in case the worst comes to pass.
    On the other hand, a more generous agreement on citizenship 
options and minority rights will open up a series of win-win 
solutions on other issues that can help anchor a sustainable 
peace, such as facilitating agreements on cross-border grazing 
access for pastoralist populations along the border who could 
otherwise be spoilers, encouraging North/South economic 
cooperation; and handling the tens of thousands of northerners 
in the SPLA, and southerners in the Sudan Armed Forces, who may 
find themselves cut from their mother armies in the event of 
secession.
    Second, the U.S. Government should promote the creations of 
a demilitarized zone between the SPLA and Sudan Armed Forces 
along the North/South border, with U.N. forces monitoring and 
enforcing the arrangement. Though still contested in parts, the 
border is the de facto front line between the northern and 
southern armies.
    With Sudan heading into a period of high tension and 
uncertainty, separating the armies can help ensure that a 
return to war requires a formal policy decision out of Juba or 
Khartoum, and does not come about accidentally through a local 
conflict that escalates to engulf the armies, as occurred with 
the earlier fighting in Abyei and Malakal.
    The third opportunity requires that we look beyond the end 
of the CPA in July 2011, and begin to plan for the fallout in 
both North and South. There are no guarantees that the progress 
seen over the CPA's lifetime will continue. We must promote new 
processes, before the end of the year, that encourage inclusive 
and consultative governance, and that can survive beyond the 
referendum.
    If we assume a southern secession vote in the referendum, 
then North and South Sudan both face a new set of challenges, 
as outlined in my testimony, including the need for greater 
transparency, protection of human rights, and inclusiveness in 
government. I'm happy to speak to this in greater detail during 
the questions.
    U.S. leadership could be catalytic on two fronts in the 
coming months. The first relates to the recent elections. Their 
lack of credibility was widely reported, and they left millions 
unsatisfied. But, they were elections, and valuable lessons 
were learned. The next step is to ensure that elections are 
held again in North and South in 4 or 5 years' time so those 
lessons can be applied and processes improved. The United 
States should lead the international community in putting the 
expectation of continued multiparty elections back on the 
table.
    The second recommendation is to begin promoting, now, the 
importance of inclusive and consultative processes in North and 
South for the drafting and development of the new 
constitutions, post-CPA. These processes will create a new 
legal framework for one, and perhaps two, countries. Ensuring 
they're inclusive and consultative will go a long way toward 
shaping the kind of countries they'll govern.
    The United States should also continue to support the 
popular consultation processes in southern Kordofan and Blue 
Nile. And any United States engagement with Khartoum should 
include a focus on national government reform, issues of good 
governance and human rights, and combating the culture of 
impunity that drives Sudan's conflict cycle.
    Finally, we must recognize that the ongoing conflict in 
Darfur is likely to continue for the foreseeable future. The 
war in Darfur will continue to be a cause of immense human 
suffering and instability throughout Sudan. The international 
community must continue to push for improved security, 
unimpeded humanitarian access, and the meaningful inclusion of 
civil society in the peace process.
    I want to thank you again, Mr. Chairman, Senator Isakson, 
and other members of the committee, for the opportunity to 
testify. And I look forward to answering your questions.
    Thank you.
    [The prepared statement of Mr. Mozersky follows:]

 Prepared Statement of David Mozersky, Associate Director of Humanity 
                        United, Redwood City, CA

    Mr. Chairman, Senator Isakson, and other members of the 
subcommittee, thank you for the opportunity to testify today at this 
important time for the people of Sudan. I have a written statement and 
ask that it be included in the record in its entirety.
    This hearing comes at a critical moment: The challenges facing 
Sudan in the coming year are of historic magnitude. The future of the 
country will be reshaped, for better or for worse. Southern Sudan's 
self-determination referendum in January 2011 will likely result in the 
creation of a new independent country in the South. Yet, the risks 
ahead are great. Ensuring that events unfold peacefully will require 
sustained and high-level leadership from the international community--
including the United States. As a guarantor of the 2005 Comprehensive 
Peace Agreement, or CPA, and the author of the Abyei Protocol, the U.S. 
Government has a unique and important responsibility to help provide 
leadership and support to the people of Sudan in the months and years 
ahead.
    It is widely expected that southerners will vote for secession, if 
the vote is free and fair. Some in the international community are 
beginning to exhibit reservations about the approaching referendum 
date, and the mounting list of matters that need to be implemented 
before the January vote. This includes unresolved issues between North 
and South that could sow the seeds for future conflict and governance 
and capacity challenges in the South that could be exacerbated post-
referendum. Despite these concerns, the referendum remains a rallying 
cry for southern Sudanese, a common objective after two long and costly 
civil wars dating back more than 50 years. The developments of the 
coming period will have implications for all nine of Sudan's 
neighboring countries and the entirety of the African Continent. The 
African Union (AU), for instance, is built on the principle of the 
sanctity of existing borders and there is already much concern among AU 
Member States about the potential fall-out from Sudan splitting in two.
    There is a genuine risk of a return to large-scale North-South 
conflict in the runup to the referendum and the fault lines for the 
coming months are becoming clearer. The referendum is the only 
nonnegotiable redline in the CPA for the South and the southern-
dominated Sudan People's Liberation Movement (SPLM). The January 9 vote 
is set in stone and I believe that any attempts to delay, backtrack, or 
manipulate the vote will be a shortcut back to war. Pushing against 
this political deadline is a complex and ambiguous technical process 
and a significant number of steps still to be implemented. These steps 
include the formation of the Southern and Abyei referendum commissions, 
followed by the clarification of voter eligibility in the southern and 
Abyei referenda, with voter registration scheduled to be completed by 
July. Each of these steps requires some sort of agreement between the 
National Congress Party (NCP) and the SPLM, yet the relationship 
between the parties continues to suffer from intense mistrust.
    We can expect the NCP to drag its feet on procedural discussions in 
order to either extract greater concessions from the SPLM on post-2011 
negotiations or to try to push back the referendum date given the 
already tight timeline before January. The response of the U.S. 
Government and the broader international community will be critical to 
determining how this transpires. Given the absolute southern commitment 
to the January date, as per the CPA, and the high risk of conflict that 
would flow from any backsliding, I would urge the U.S. Government to be 
vocal--early, often, and at the highest level possible--in reaffirming 
its commitment to seeing that the referendum is held on time per the 
terms of the peace agreement. The CPA is a contract between the parties 
in Sudan, the U.S. Government, and the other international signatories. 
We must all live up to this responsibility and ensure that the terms of 
the agreement are implemented as originally agreed upon.
    Despite the risks outlined above, there exist some important 
opportunities to help avoid the worst case scenarios and to promote 
sustainable peace and stability, whatever the outcome of the 
referendum. Allow me to briefly outline three openings that currently 
exist for conflict prevention efforts, where U.S. Government leadership 
and support to existing international efforts could have an important 
impact in ensuring a peaceful future for all Sudanese.
    The first opportunity is to provide full and active support to 
early negotiations between North and South on post-referendum 
arrangements, to help ensure that these talks succeed. The greatest 
risk of conflict in the months ahead stems from uncertainties about the 
implications of the referendum on people's livelihoods, as well as 
national and economic interests--particularly in the context of a vote 
for independence. This uncertainty will lead to zero-sum calculations 
on the referendum and increase the chances of violence, particularly if 
key actors perceive that they stand to lose from the referendum going 
ahead or from a particular outcome. The importance of early 
negotiations on post-referendum arrangements is to provide some early 
guarantees to the governments in Juba and Khartoum, as well as affected 
communities, that their core interests and livelihoods will continue to 
be protected regardless of the outcome of the vote. What's more, these 
agreements will shape the nature of future relations between North and 
South. Where possible, we should be pushing for mutually beneficial 
arrangements that encourage continued cooperation and peaceful 
engagement between North and South.
    The importance of this early dialogue is most obvious in the oil 
sector. The bulk of Sudan's oil lies in the South, yet the sole 
pipeline for export passes through the North. Oil revenue currently 
provides the majority of government revenue for both the national and 
southern governments. A threat to that revenue source could quickly 
torpedo the ability of the governments in Juba or Khartoum to rule 
effectively post referendum. An early deal on continued cooperation in 
the oil sector in the event of a secession vote will provide 
reassurance that southern oil can continue to make the journey to 
international markets via Port Sudan and that some share of revenue 
from oil can still be counted on in both Juba and Khartoum in the near 
and middle term. By contrast, the failure to reach such a deal is 
likely to lead to fears among the NCP that the referendum will mean 
economic suicide. From that perspective, a return to war or an attempt 
to recapture some of the southern oil fields seems entirely plausible.
    While an oil deal matters for the economies of both North and 
South, an equally important set of negotiations are those related to 
issues of citizenship and nationality. The immediate fear is the status 
of the 1.5 million southerners currently living in the North, should 
the South vote for secession. There are worrying signs about Khartoum's 
intent toward this population, including possibly stripping southerners 
of citizenship, and the resulting threat of massive forcible 
displacement back to the South, which could lead to outright conflict 
between North and South. While the citizenship criteria will ultimately 
be the sovereign choice of the government, the international community 
must ensure that at a minimum there are guarantees for sufficient 
protection of minority rights and that rights and responsibilities 
under international law are upheld. Here, there is an important 
precedent to build on. In 2004, Sudan signed the Four Freedoms 
Agreement with Egypt, whereby each government granted the right to 
work, and the rights of movement, residence, and ownership to each 
other's citizens. If Khartoum and Juba could be persuaded to make a 
similar public commitment at this early stage, it would go a long way 
toward reducing the risk of a preventable humanitarian catastrophe and 
toward building the framework for a sustainable peace between North and 
South.
    The discussion on citizenship and minority rights has implications 
for a range of other highly charged post-referendum issues. The goal 
should be to find win-win solutions and to encourage continued North-
South cooperation and interaction, both as a short-term safety net for 
vulnerable populations and as a basis for a sustainable long-term 
peace. A more generous agreement on citizenship options and minority 
rights will be crucial for opening up a series of pro-peace, mutually 
beneficial arrangements and will help facilitate a soft landing for all 
parties post-referendum. For example, such an arrangement opens the 
door for agreements on cross-border grazing access for pastoralist 
populations who reside along the border. It encourages a soft border 
and facilitates North-South economic cooperation, an important pillar 
for long-term peace. And it increases options available for the tens of 
thousands of northerners in the Sudan People's Liberation Army (SPLA) 
and southerners in the Sudan Armed Forces who may find themselves cut 
from their mother armies in the event of a secession vote, a serious 
and immediate security concern. These issues address the people most 
directly affected by the referendum. It remains to be seen if the 
effect will be positive or negative, but a package of win-win solutions 
begins with the question of citizenship and minority rights, and a 
strong U.S. position on these issues could be of tremendous value in 
helping to shape the direction of the process in a positive way, 
benefitting the people and reducing the risk of war.
    The second conflict prevention opportunity is related, in that it 
too seeks to help reduce the chances of war along the border. 
Specifically, the U.S. Government should promote the creation of a 
demilitarized zone between the Sudan People's Liberation Army (SPLA) 
and Sudan Armed Forces along the North-South border, with U.N. forces 
monitoring and enforcing the arrangement. Though still contested in 
parts, the North-South border is the de facto front line between the 
northern and southern armies. Tens of thousands of troops are deployed 
there, among and between the communities who call this area home. There 
have been a handful of clashes between the two armies over the past 5 
years--all of them have been started by a local conflict that has 
quickly escalated to fighting between the armies. Communities along the 
border are generally aligned along the North-South axis. Establishing a 
demilitarized zone would help to separate local tensions from national 
fault lines and help to avoid a violent incident from escalating to a 
full return to war. With Sudan heading into a period of high tension 
and tremendous uncertainty, separating the armies doesn't make a return 
to war impossible, but it does help ensure that a return to war is a 
policy decision out of Juba or Khartoum--and not just an escalation of 
local conflict that engulfs the armies (as occurred in the fighting 
Malakal in 2007 and in Abyei in 2008). The U.N. mission could help 
monitor the pullback of forces and patrol such a demilitarized zone. 
This kind of setup could be a game changer, reducing the tension along 
the border and promoting stability in the transitional areas of Abyei, 
Southern Kordofan and Blue Nile, helping reduce the ambiguity 
associated with the proliferation of arms and paramilitary groups in 
Sudan, and reducing the risk of a return to large-scale war.
    The third opportunity for conflict prevention requires that we look 
beyond the referendum timeline and begin to plan for the fallout in 
both North and South. In either a unity or secession scenario, the 
terms of the CPA--the main framework for politics, and international 
engagement for the past 5 years--are due to expire in July 2011. The 
current interim national constitution will need to be renegotiated and 
there are no guarantees that the limited progress seen over the CPA's 
lifetime will continue. We must work to promote the creation of 
processes over the 7 months remaining this year that encourage 
inclusive and consultative governance and that will survive beyond the 
referendum.
    If we assume a southern secession vote in the referendum, then 
North and South Sudan both face a new and potentially more difficult 
set of challenges. In the South, the challenges of nation-building will 
be great and the recent elections have highlighted dangerous 
intrasouthern divisions that could be exacerbated once the unifying 
event of the referendum is over. The elections also demonstrated 
worrying heavy-handedness at times by southern security forces against 
opposition candidates, the media, and civil society. These trends must 
be monitored closely. As part of any U.S. support to the South, we must 
be consistently be pushing the principles of transparency and 
inclusiveness in the exercise of nation building that lies ahead.
    The situation in the North post-referendum is equally worrying. The 
April elections in the North delivered the intended result for 
Khartoum. Since that time, there has been a series of post-election 
government crackdowns and arrests of opposition, independent media, and 
civil society activists. A post-referendum North will still face an 
active rebellion in Darfur, and Sudan's long history of center-
periphery conflict will likely continue, but without the South in the 
mix. In short, while the referendum may allow the South to opt out of 
one set of problems, many of Sudan's long-term troubles will remain. 
The United States can help reduce the chances of new conflict in 
vulnerable areas in the North by continuing to support the popular 
consultation processes in Southern Kordofan and Blue Nile, and helping 
to ensure that these processes succeed. Any U.S. engagement with 
Khartoum should be focused on issues of good governance and combating 
the culture of impunity that drives the cycle of conflict. The U.S and 
the region have a stake in the nature and direction of a post-
referendum North, but getting this right will require policy planning 
that stretches beyond the short term.
    There are two specific recommendations for initiating longer term 
processes, where U.S. leadership could be catalytic. The first relates 
to the recent elections: Their lack of credibility, particularly in the 
North, but also in the South, was widely reported, and they left 
millions of people unsatisfied. But they were elections. Valuable 
lessons were learned and experiences accumulated. The next step is to 
ensure that elections are held again in the North and the South in 4 or 
5 years time, so that those lessons can be applied and processes 
improved. The U.S. should lead the international community in putting 
the expectation of another round of multiparty elections back on the 
table. The second recommendation is to promote the importance of an 
inclusive and consultative process in North and South for the drafting 
and development of the new constitutions, post-CPA. These processes 
will create a new legal framework for one, perhaps two, new countries. 
Ensuring they are inclusive and consultative will go a long way toward 
shaping the kind of countries they're likely to govern. While much of 
the coming period will require the U.S. to react to events, there are 
opportunities to proactively lead and help shape processes that can pay 
dividends for peace, stability, and democracy down the road.
    Finally, we must recognize that the ongoing conflict in Darfur is 
likely to continue for the foreseeable future. The level of fighting 
has increased significantly in 2010, and recent weeks have seen a 
number of heavy clashes between government forces and the JEM, which 
led to the latter's withdrawal from the Doha peace process. The war in 
Darfur will continue to be a cause of immense human suffering and 
instability throughout Sudan. The international community must continue 
to push for improved security, unimpeded humanitarian access for the 
U.N. and aid organizations, and the meaningful inclusion of civil 
society in the peace process. The United States should insist that the 
U.N. be allowed to conduct a humanitarian needs assessment, so we can 
better reduce current suffering and continue to work for a long-term 
solution.

    Senator Feingold. Thank you very much, sir.
    And now we'll go to Ms. Richard.

   STATEMENT OF ANNE RICHARD, VICE PRESIDENT FOR GOVERNMENT 
    RELATIONS AND ADVOCACY, INTERNATIONAL RESCUE COMMITTEE, 
                         WASHINGTON, DC

    Ms. Richard. Thank you, Mr. Chairman. Thank you, Senator 
Isakson, Senator Wicker, and members of the subcommittee for 
the opportunity to testify today on this issue of assessing 
challenges and opportunities for peace in Sudan.
    I appreciate your offer to have our full testimony put in 
the record.
    The International Rescue Committee has been one of the 
largest providers of aid in Southern Sudan for decades.
    IRC has over 250 staff working in Southern Sudan. Of this 
number, over 225 are, themselves, Sudanese. There are 20 
expatriates working for us there. In looking at the challenges 
to our work, I think it helps if you can put yourself in the 
shoes of one of our Sudanese colleagues, trying to do a good 
job and do something constructive in a very challenging 
situation. First, you must realize that your job is sometimes 
dangerous, as your fellow citizens are under great stress and 
living in a pressure-cooker environment.
    Just in getting ready for this testimony and talking to our 
field staff, they told us of a couple of instances, that are in 
the testimony, where SPLA soldiers were unhappy because they 
were underpaid and they resorted to violence or they threatened 
violence to some of their fellow citizens.
    In Southern Sudan, war and its aftermath has led to the 
deterioration of traditional ways to mediate disputes. Youth 
are no longer under the control of chiefs, and can instigate or 
exacerbate violence, including violence at or around schools. 
Communities have also seen the proliferation of small arms. The 
absence of institutions that promote justice and the rule of 
law, such as police, courts, and prisons, means that tension 
can quickly escalate to violence. Once an outbreak of violence 
occurs, it becomes difficult to break the cycle and stop 
retaliatory attacks.
    Security challenges for humanitarians range from being 
targets of violence to having great difficulty gaining access 
to the most isolated people and places. Many bush airstrips, 
used to provide humanitarian aid during the civil war, have 
fallen into disrepair. These airstrips once served as a 
lifeline, as they were often the only access to remote 
communities. Last October, 75 bush airstrips across Southern 
Sudan were classified by the World Food Programme as unusable 
``no-go'' zones.
    Second, if you were one of my colleagues in Southern Sudan, 
you would also realize that the welfare of your family and 
friends is in great jeopardy because of widespread poverty and 
lack of development. The human development indicators for the 
Southern Sudanese are really shocking. Less than half the 
population has access to safe drinking water. A pregnant woman 
in Southern Sudan has a greater chance of dying from pregnancy-
related complications than a woman almost anywhere else in the 
world. One in seven children will die before their fifth 
birthday. Only one quarter of the citizenry in Southern Sudan 
has access to medical care. And of those people, 85 percent of 
them get it from NGOs and church groups instead of their own 
government. And, finally, close to 90 percent of Sudanese women 
cannot read, in the South.
    In sum, Southern Sudan is one of the least-developed 
regions of the world. It is slightly larger than France, but it 
only has 50 kilometers of paved roads. And the rest of the 
human development indicators are near the bottom of the scale.
    Yet, this region may soon be its own country. Whatever 
happens after the referendum of January 9, 2011, basic needs 
for health care and clean water will not disappear overnight.
    Third, as a Sudanese IRC worker, you fear for the future of 
your country. You know that government capacity is weak, and 
that you cannot rely on your own government to provide you with 
services, like health and education, roads to market, and a 
functioning police force.
    Finally, you also have a sinking feeling that the rest of 
the world will soon forget about Southern Sudan. Future aid 
flows remain uncertain.
    The 2011 referendum is rapidly approaching, and many 
countries see this as a deadline and an end of a process, 
rather than merely a step on a road toward a better life for 
the Southern Sudanese.
    So, very quickly, IRC offers the following recommendations.
    The Southern--Southern Sudan cannot move forward without 
both humanitarian and longer term development assistance. We 
need both of these things at the same time, which, I think, is 
not fully appreciated sometimes, where we would like to see 
them pushed along to economic development. The situation's not 
there yet. The--it's not ripe.
    Second, U.S. Government should continue bilateral funding 
to Southern Sudan, and should also push other donors to 
continue to contribute. The United States and the international 
community need to plan for aid beyond the referendum. We should 
be thinking out beyond than just the immediate next few months.
    The Government of Southern Sudan must move beyond a focus 
on civilian disarmament and instead strengthen the ability of 
its military and police to protect civilians.
    Frankly, Sudan's ruling elites need to engage with the 
country's diverse populations and bring an end to the politics 
of exclusion and conflict. Citizens should participate in the 
big decisions facing their country.
    And, at the same time, we would recommend that everything 
be done to increase humanitarian access, by restoring those 
bush airstrips and getting roads in better condition.
    Despite a very challenging work environment, our staff and 
their colleagues from other NGOs--nongovernmental 
organizations--daily attempt to educate children, protect women 
and girls, provide health care, and strengthen weak 
institutions. This corps of humanitarians and development 
experts, largely made up of Sudanese citizens, are committed to 
building a country and helping the South recover from years of 
civil war.
    The International Rescue Committee urges the U.S. 
Government to remain committed to peace in Sudan, and to 
continue to play a constructive role.
    Thank you, Mr. Chairman, for holding this hearing on this 
very important subject. We're very grateful.
    [The prepared statement of Ms. Richard follows:]

   Prepared Statement of Anne C. Richard, Vice President, Government 
  Relations & Advocacy, International Rescue Committee, Washington, DC

    Chairman Feingold, Ranking Member Isakson, and members of the 
committee, Please let me begin by saying that I appreciate the 
opportunity to appear here today, along with my colleagues to testify 
on the issue of assessing challenges and opportunities for peace in 
Sudan. My name is Anne Richard and I represent the International Rescue 
Committee.
    Founded in 1933, the IRC is a global leader in emergency relief, 
rehabilitation, protection of human rights, post-conflict development, 
resettlement services and advocacy for those uprooted or affected by 
violent conflict and oppression. The IRC is on the ground in over 40 
countries, providing emergency relief, relocating refugees, and 
rebuilding lives in the wake of disaster. Through 22 regional offices 
in cities across the United States, we help refugees resettle in the 
United States and become self-sufficient.
    The IRC has been one of the largest providers of aid in Southern 
Sudan for 30 years, delivering emergency relief and post-conflict 
assistance. Today, our programs are designed to save lives, mitigate 
the effects of conflict and help communities to sustain themselves. 
Following the Comprehensive Peace Agreement (CPA) of 2005, the IRC has 
focused on four areas: health care; governance and rights; child and 
youth protection and development; and gender-based violence. The IRC 
directly supports 450,000 people in five states: Central and Eastern 
Equatoria, Northern Bahr el Ghazal, Unity and Lakes.
  humanitarian, development, and security challenges in southern sudan
    IRC has over 250 staff in country. Of this number, over 225 are 
Sudanese. There are 20 expatriates working for us in Southern Sudan. In 
looking at the challenges to our work, I think it helps to consider 
these from the perspective of one of our staff. Put yourself, if you 
can, in the shoes of a Southern Sudanese staff member of the IRC 
working in the remote, underserved villages of Unity State in Southern 
Sudan.
    First, you must realize that your job is sometimes dangerous as 
your fellow citizens are under great stress and living in a pressure-
cooker environment. Earlier this month one of our staff members 
reported: ``A beating took place next to our compound this afternoon, 
and our guard reported that it was soldiers beating up the SPLA finance 
guy who was giving them a smaller salary. It sounded quite bad. Again, 
this was very public and in the middle of the village for all to see.'' 
IRC managers were also receiving reports that soldiers were staying at 
a nearby clinic--a primary health care unit--and continuing to demand 
food from women in the community, including the wives of IRC staff.
    In Southern Sudan, war and its aftermath has led to the 
deterioration of traditional ways to mediate disputes. Youth are no 
longer under the control of chiefs and can instigate or exacerbate 
violence. Communities have also seen the proliferation of small arms. 
These facts and the absence of institutions that promote justice and 
the rule of law (police, courts, prisons) mean that tension can quickly 
escalate to violence. Once an outbreak of violence occurs, it becomes 
difficult to break the cycle and stop retaliatory attacks.
    Security challenges for humanitarians range from being targets of 
violence to having great difficulty gaining access to the most isolated 
of our beneficiaries. According to the January 2010 joint NGO report 
entitled ``Rescuing the Peace in Southern Sudan,'' many bush airstrips 
used to provide humanitarian aid during the civil war have fallen into 
disrepair. These airstrips once served as a lifeline, as they were 
often the only access to remote communities. Yet as of October 2009, 75 
bush airstrips across Southern Sudan had been classified by the World 
Food Programme (WFP) as restricted.\1\
---------------------------------------------------------------------------
    \1\ Oxfam et al., ``Rescuing the Peace in Southern Sudan,'' joint-
NGO report, January 9, 2010: 17.
---------------------------------------------------------------------------
    Second, you also realize that the welfare of your family and 
friends is in jeopardy because of widespread poverty and the lack of 
development. Less than half the population has access to safe drinking 
water. A pregnant woman in Southern Sudan has a greater chance of dying 
from pregnancy-related complications than a woman almost anywhere else 
in the world. One in seven children will die before their fifth 
birthday. Only one quarter of the citizenry in Southern Sudan has 
access to medical care, and 85 percent of care is provided by NGOs and 
church groups instead of the government. Close to 90 percent of 
Southern Sudanese women cannot read.\2\
---------------------------------------------------------------------------
    \2\ Oxfam et al., 3.
---------------------------------------------------------------------------
    In sum, Southern Sudan is one of the least developed regions in the 
world. In a region the size of France with only 50 km of paved road, 
human development indicators sit near the bottom of the scale. Yet this 
region may soon be its own country. Regardless of what happens after 
the referendum of January 9, 2011, basic needs for health care and 
clean water will not disappear overnight. Nor will the pressing need 
for development.
    Third, you fear for the future of your country. You know that 
government capacity is weak and you see little evidence that things are 
improving. Much of the investment taking place has been focused on the 
town of Juba and there are few signs of economic development elsewhere. 
The overall amount of technical assistance provided to the government 
is quite small. A recent report contrasted the 150 foreign technical 
experts and advisers serving now in the ministries in Southern Sudan to 
the 3,000 that reported to duty in post-war Mozambique in 1990.
    You know that you cannot rely on the government to provide you with 
the services like health and education, roads to market and a 
functioning police force.
    And, finally, you also have a sinking feeling that the rest of the 
world will soon forget about Southern Sudan. Future aid flows remain 
uncertain. The 2011 referendum is rapidly approaching and many 
countries may see this deadline as the end of the peace process and of 
their interest in Sudan, rather than merely a step on a road toward a 
better life for the Southern Sudanese.
                       targeting challenges: aid
    What can be done to help the people of Southern Sudan? An important 
step is to improve the delivery of aid.
    Over the past 2 years, the major government donors of aid to 
Southern Sudan sought to increase aid coordination and intended to 
shift most of their aid from bilateral aid to pooled funding 
mechanisms, such as the World Bank's Multi-Donor Trust Fund (MDTF). 
However, the pooled funding mechanisms have been bogged down in 
bureaucracy and very little money has been made available through them 
to date. In addition, the MDTF requires contributions from the 
Government of Southern Sudan (GOSS), which the GOSS has been unable to 
meet, as GOSS revenue has suffered immensely from the financial crisis 
and the plunge in oil prices. Currently, many donor governments have 
concluded that the MDTF has been a failure, and several have pulled out 
(such as the Norwegian Ministry of Foreign Affairs, among others).
    Discussions continue among donor governments about whether to 
divert existing funds or contribute new funds into alternative pooled 
mechanisms that are designed better. However, even if another mechanism 
or interim solution is devised, it will be at least 6 months before 
these funds would flow, as award procedures would need to be developed, 
calls for proposals released, and awards issued. Pooled funding is a 
good concept in theory but difficult in practice because it does not 
allow implementing partners the opportunity to build relationships, 
report back to and advocate directly with donor governments.
    Aid to Southern Sudan also exemplifies a broader challenge across 
many countries, where there is confusion about when aid for 
humanitarian purposes and aid for longer term development are needed. 
Many donor governments concerned about Southern Sudan would like to see 
a phase out of humanitarian aid and a move toward programs that promote 
economic recovery and development. In 2009, however, analysts saw how 
development indicators fell, tensions rose and humanitarian programs 
remained vital for many people even as the 2010 elections and 2011 
referendum drew nearer. It is very hard to secure multiyear funding in 
order to run long-term programs to build the capacity of government 
institutions, strengthen health care and educational systems, and 
contribute to a functioning economy in a setting that desperately needs 
it when, at the same time, health conditions remain at emergency 
levels. Donors should recognize the need for both kinds of assistance, 
especially in such a complex and challenging setting as Southern Sudan.
    It is essential that the U.S. Government continue bilateral funding 
to Southern Sudan. We also ask that the U.S. Government push the donors 
that are contributing to pooled funding mechanisms to get them 
unblocked as soon as possible given that the referendum is just 7 
months away. The U.S. Government should also advocate for both 
humanitarian and long-term development funding. Finally, U.S. 
policymakers must be realistic about the large amount of resources, 
both human and financial, that will be required for rebuilding in the 
South.
    Reductions or delays in the provision of basic services and in 
building up the capacity of government of South Sudan will exacerbate 
tensions around the referendum. If secession is the outcome, people 
will expect a ``secession-dividend'' just as the signing of the CPA led 
to high expectations for an immediate ``peace dividend''--a peace 
dividend that, 5 years later, has hardly materialized.
    targeting challenges: support for a safe and credible referendum
    In addition to improving the delivery of aid, other governments and 
international organizations should do everything possible to ensure 
that the safe and credible referendum takes place as scheduled. A 
January 2010 Chatham House report, commissioned by the IRC and written 
by Sudan expert Eddie Thomas, states: ``The international community 
needs to continue to support Popular Consultations and the referendum 
while recognizing that these processes will complicate politics in 
regions of Sudan that are not at peace.'' \3\ Thomas goes on to explain 
that these processes, which were meant to help Sudanese people 
determine their own future freely, now run the risk of perpetuating 
violence. But they must be completed on schedule, because the big 
deadline of the Southern referendum cannot be altered without enormous 
risks.\4\
---------------------------------------------------------------------------
    \3\ Thomas, Eddie, ``Decisions and Deadlines: A Critical Year for 
Sudan,'' Chatham House report, January 9, 2010: 8.
    \4\ Thomas, 16-17.
---------------------------------------------------------------------------
    It is urgent that the international community, including countries 
that are Sudan's neighbors, the African Union and the United Nations, 
provides immediate mediation and support to Sudan's parties to resolve 
outstanding issues and help stage a referendum. A successful 
referendum, in which the Southern Sudanese determine their own future, 
is Sudan's best chance for peace.
    The Chatham House report also points out that delays in reaching 
political agreements and adopting laws on referendums and Popular 
Consultations will put impossible pressures on electoral bureaucracies 
in the coming 12 months. Donors should commit now to help mitigate 
those pressures with their resources.\5\
---------------------------------------------------------------------------
    \5\ Thomas, 19-20.
---------------------------------------------------------------------------
    If the people choose secession, it is imperative that the two 
parties to the CPA reach deals on security arrangements, oil revenues, 
water rights, assets and liabilities, currency, nationality and a host 
of other issues. If the people choose unity, these issues will not 
disappear and will still need review. Primary responsibility for these 
processes lies with the two parties, however countries that have 
supported the CPA, along with foreign investors, need to work together 
to limit the possibility of failure.\6\
---------------------------------------------------------------------------
    \6\ Thomas, 8.
---------------------------------------------------------------------------
 improving efforts to enhance local capacities for conflict prevention 
      and mitigation, civilian protection, and humanitarian access
    Processes called for in the CPA, such as the peaceful demarcation 
of a populous and troubled border that intersects millions of lives and 
livelihoods, require Sudan's ruling class to engage with the 
population. These are processes that depend on millions of people 
understanding, calculating, speaking and acting for them to work. The 
failure to complete these processes is often presented as rooted in the 
suspicions of the two parties. They are also examples of the state's 
seeming inability to relinquish coercion and engage with wider 
populations.\7\
---------------------------------------------------------------------------
    \7\ Thomas, 21.
---------------------------------------------------------------------------
    Sudan's powerful elites must avoid perpetuating the politics of 
exclusion and conflict and help citizens participate in the big 
decisions facing the country.
    Civilian policing, which is the role of the Southern Sudan Police 
Service (SSPS), is weak. The police have shown limited capacity in 
regards to civilian protection. Building a trained police force 
typically takes more than 10 years, however at 5 years on the SSPS lack 
training, equipment, radios, cars, and uniforms and civilians are often 
better armed than the police. Because this police force lacks the 
capacity to uphold its mandate, the responsibility of policing 
continues to fall to the SPLA. This is now, and will continue to be, a 
crucial responsibility for the SPLA during and after the referendum 
period.
    For improving protection of civilians and to ensure humanitarian 
access, the U.N. mission in Sudan should deploy Temporary Operating 
Bases (TOBs) and initiate preemptive patrolling in 13 areas in Southern 
Sudan where potential intercommunal violence has been identified in 
order to provide a deterrent presence. UNMIS should monitor the GOSS-
led forced civilian disarmament process in Jonglei, Warrap, and Lakes 
states. They should also expand the contingency planning exercise in 
Abyei to other areas, by developing concrete local protection 
strategies to provide safe spaces for civilians in case of an eruption 
of violence.
    The GOSS, with support from international partners, must move 
beyond a focus on civilian disarmament to strengthening the ability of 
its military and police to provide effective internal security and 
protect civilians.
                            recommendations
    To summarize, the IRC offers the following recommendations:

--The U.S. Government and the international community must realize that 
    Southern Sudan cannot move forward without both humanitarian and 
    long-term development funding.
--The U.S. Government should continue bilateral funding to Southern 
    Sudan. The U.S. Government should also push donors that are 
    contributing to pooled funding mechanisms to get them unblocked 
    quickly as the referendum is only 7 months away.
--With support from international partners, the GOSS must move beyond a 
    focus on civilian disarmament and instead strengthen the ability of 
    its military and police to provide effective internal security and 
    protect civilians.
--Numerous agreements must be made on a wide range of complex processes 
    before January 2011. Sudan's ruling elites need to engage with the 
    country's diverse populations, if they are to avoid perpetuating 
    the politics of exclusion and conflict and help citizens 
    participate in the big decisions facing the country.
--To increase humanitarian access to remote communities, the GOSS 
    should start to restore the 75 bush airstrips across Southern Sudan 
    that the World Food Programme classified as ``no-go'' in October 
    2009. These airstrips once served as a lifeline to hard to reach 
    communities.

    As I mentioned before, Southern Sudan is a region where one in 
seven children will die by their fifth birthday; less than 50 percent 
of the population has clean drinking water; and a pregnant mother has a 
greater chance of dying in childbirth than anywhere else in the entire 
world. No matter what the outcome, these issues will not disappear come 
January 2011. Despite a very challenging work environment, our staff 
and their colleagues from other nongovernmental organizations daily 
attempt to educate children, protect women and girls, provide health 
care and strengthen weak institutions. This corps of humanitarians and 
development experts--largely made up of Sudanese citizens--are 
committed to building a country and helping the South recover from 
years of civil war. The International Rescue Committee urges the U.S. 
Government to remain committed to peace in Sudan also and to continue 
to play a constructive role in helping to spur development and ensure 
security, especially in the south.

    Senator Feingold. I thank all of you for your important 
testimony.
    I'll begin with a 7-minute round of questions.
    Ms. Almquist, let me start with you. This is something I 
asked General Gration, almost 2 weeks ago. In the event that 
the National Congress Party takes actions to disrupt the 
referendum process, what do you see as the viable policy 
options for the United States? And, in your view, what steps 
should the administration take now to ensure that we are 
prepared to act, in the event of that scenario?
    Ms. Almquist. First, I thank you, Mr. Chairman, for the 
question.
    I think, first of all, we have some lessons to learn from 
the recently concluded--or almost concluded elections process. 
One state, that of southern Kordofan, most notably, still needs 
to have their election. And that's--I just make a note of that, 
because it's very important for the popular consultation 
process there, and for preventing an outbreak of violence in 
that critical area.
    Now, I think that we need to be vocal now, up front, ahead 
of the referenda, about what the critical benchmarks are for a 
baseline process. I'm not sure that we were as explicit as we 
could have been, publicly. I'm sure there were many 
communications privately to the parties, in terms of a free and 
fair election process.
    You know, the more that we can say now, the more that we 
can get the other witnesses of the CPA to repeat those 
messages, especially those who perhaps are perceived as more 
friendly and closer to Khartoum, you know, I think the greater 
likelihood that we'll see behavior match the expectations that 
we would all like to have for the referenda.
    It's entirely predictable, I think, that there will be 
stalling and foot-dragging, in terms of the negotiations and 
the standing up for the Referenda Commission. Both the Southern 
Sudan Referendum Commission and the Abyei Referendum Commission 
are still waiting on the formation of the new governments from 
the recently concluded elections. That needs to happen as 
quickly as possible, and with as much vocal pressure as 
possible from the United States and other key members. And 
then, to keep on track, each step of the way, with the process 
as it goes, and to hold them account publicly.
    I think the United States has exhausted most of its 
bilateral or unilateral measures for economic sanctions and 
other pressures--on Khartoum, in particular--since we have a 
full range of sanctions, as you all know, in place already.
    You know, what we need to do is to now broaden, I think, 
the chorus of voices that are saying consistent messages, and 
then to have the U.N. Security Council and other key bodies, 
especially the African Union and the IGAD, to be on top of the 
parties as this process goes forward.
    Delay is inevitable, I think, in some respects, given the 
shortness of time between now and January 2011, but it's not 
acceptable, in terms of an ultimate subversion of the process 
that needs to happen.
    Senator Feingold. Thank you.
    Ms. Giffen, what can we realistically expect from the U.N. 
missions, Sudan UNMIS, in terms of civilian protection in 
Southern Sudan? In your view, where should they focus their 
resources in the runup to the referendum, as well as in the 
aftermath of the referendum?
    Ms. Giffen. Thank you, Mr. Chairman.
    We're actually advising that UNMIS, in particular, put 
together a protection strategy that maps out all of the various 
scenarios and all of the various risks in Southern Sudan, and 
then goes through a prioritization process, looking at other 
actors that provide protection, outside of the mission. UNMIS 
can't be expected to provide protection for all of the people 
in Southern Sudan, particularly given its shortfalls in 
mobility and assets.
    Having said that, I do think that we've seen quite notable 
progress from UNMIS over the last year, on protection. They've 
done some really innovative work with long-range patrols and 
with mobile operating bases. Where they have heard early on 
that tribal violence, for example, is heating up in an area, 
they have gone out with joint protection teams of both 
civilians and militaries to do mediation and try and defuse the 
violence. This is exactly the kind of action that we need going 
forward.
    I think the situation in Jonglei state, right now, is 
particularly concerning, and it is a perfect example of both 
frustration over the elections, as well as tribal violence, 
where you have former SPLA leaders that were formerly militia, 
who are now rebelling against the SPLA in protest of the state 
election results. This is the kind of thing that can quickly 
escalate into larger scale violence. I was pleased to see that 
the U.N.--not initially, but soon after--offered to go in and 
offered to negotiate with one of the actors that is rebelling. 
And that's exactly what we are looking for, from the political 
level. We also need to see that from the military and the other 
civilian components of UNMIS.
    Senator Feingold. Thank you.
    Mr. Mozersky, I'm intrigued by your idea of creating a 
demilitarized zone between the SPLA and the Sudan Armed Forces 
along the North/South border, and with U.N. forces monitoring 
and enforcing the arrangement. Is this something that the U.N. 
mission, in Sudan could undertake with its current mandate? And 
is this idea on the table in the negotiations that are going on 
between the parties, at this point?
    Mr. Mozersky. Thank you, Mr. Chairman.
    It's not on the table at the moment, and it won't implement 
itself. It will only become a reality if the international 
community puts it on the table and attempts to broker these 
negotiations between the parties. UNMIS will never be able--the 
U.N. will never be in a position to create a buffer zone, or a 
demilitarized zone, without the compliance of the parties. So, 
it would have to be the outcome of a negotiation between the 
Government of Sudan and the Government of Southern Sudan.
    I would suggest that it makes a lot of sense, and we should 
prioritize that as--among the talking points with the northern 
and southern governments.
    In terms of mandate, I think it depends, in part, on the 
outcome of those negotiations, whether there's an armed 
component that's requested to stand between the armies, or 
more--or just a civilian monitoring component. But, now is the 
time to begin those discussions, because, again, the--removing 
the possibility of an accidental return to war, I think, can 
drastically reduce the risk of large-scale conflict.
    Senator Feingold. And, Mr. Mozersky, in the aftermath of 
the 2011 referendum, if the South votes in favor of secession, 
what leverage and opportunities will remain for encouraging the 
NCP to undertake further or greater reform? And, more 
generally, what do you think will be the impact on the rest of 
Sudan, politically and otherwise, if secession actually occurs?
    Mr. Mozersky. I think there's cause for serious concern 
about the status of Northern Sudan, post-referendum, if the 
South secedes. Some of the concerns were raised by the two 
previous speakers. And it's one reason that I would encourage 
us to take advantage of the opportunity that exists now, in the 
runup to the referendum, to create processes that--for 
inclusivity, for consultation, that will exist beyond the 
referendum.
    The challenge is that the framework, the CPA, will expire 
in July 2011. And it's been--that includes virtually all the 
entry points for international engagement, at the moment. We 
have to think creatively, both about creating a new--terms for 
a new narrative and new engagement with the Government of 
Sudan, but also make clear what those parameters are. And they 
have to do with inclusivity in government. They have to do with 
stepping back from some of the more draconian security measures 
that we've seen, both in the runup and aftermath of the 
election. And clearly a resolution of the Darfur conflict is 
critical to that.
    The alternative is, I think, an escalation of conflict in 
Northern Sudan. That's the direction that things will likely 
head if the Government of Sudan goes down a path of minority 
rule, greater exclusivity in governance. And that's something 
to be avoided, at all costs.
    Senator Feingold. Thank you.
    I'll have further questions in another round.
    But, now, Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Mozersky, in listening to--in reading your testimony, 
as quickly as I could while listening to your testimony, as 
well, without some preventative work done now, you have 
significant concerns over what's going to happen, post-
referendum. Is that correct?
    Mr. Mozersky. That is correct.
    Senator Isakson. What is being done now, of a preventative 
nature, either on hydrocarbon or the oil situation, or 
security, from a standpoint of police and protection? Is 
anything going on? Is there a forum in which that's taking 
place that's meaningful?
    Mr. Mozersky. The--on the first--there's a forum, but it 
hasn't launched yet.
    Senator Isakson. Yes.
    Mr. Mozersky. The elections, predictably, sucked up all 
political attention and awareness, both in Sudan and from the 
international community. So, there's an intention and a 
commitment by the parties to begin, hopefully soon, a process 
of negotiations on post-2011 issues--post-referendum issues--
with support from international actors, including the African 
Union Panel.
    On oil, in particular, there have not been any formal 
negotiations, that I'm aware of. Norway has offered, and I 
believe has been accepted by both parties, to provide 
particular assistance. But, there's a long way to go between--
nowhere, basically--talking about the parameters of the forum 
and actually getting down to business and working out these 
details.
    I would say, though, that the parties don't need to 
negotiate full details on all these post-referendum issues by 
January. What they need, at a minimum, is a framework agreement 
that can provide sufficient guarantees for the shape, the 
framework of the outcomes, prior to January. If they have a 
framework or agreement on principles--on oil-sharing, on 
grazing rights, on citizenship, and on security arrangements--
then those four issues, alone, will reduce the risk of tension, 
I think, reduce the risk of a zero-sum perception, heading into 
the referendum. And some of the additional details can, 
potentially, be worked out after the fact.
    On security, I would echo the comments made by some of the 
other speakers. I think there's a long way to go. In the South, 
in particular, a lot of the focus has gone on reforming the 
army, at the expense of other security services. In Northern 
Sudan, we haven't even seen reform of the army. There was a 
process for security-sector reform built into the CPA, both 
North and South, that never really got off the ground. So, I 
would echo earlier comments, that it's a high-priority issue.
    Senator Isakson. Well, given the experience we had in Iraq 
with the hydrocarbon law and the sharing of wealth, where you 
had oil in one place and recipients in another, 6 months is a 
short timeframe to negotiate what will happen. Is it enough 
time to put together those principles, where they could do it 
when it's post-referendum, do you think?
    Mr. Mozersky. I think it is. I think it is. And there's a 
fundamental fork in the road, early on, which is whether 
they'll look for a continued revenue-sharing model. So, maybe 
they tweak the percentages. At the moment, 50 percent of 
Southern--of revenue from Southern oil goes to the South, 50 
percent goes to the national government, so whether they seek 
to maintain a revenue-sharing model, or whether the South opts 
to move to a fee-for-service model, where they'll pay for 
pipeline rental, and pay for the refinery, and what have you. 
And the second option is more politically popular in Southern 
Sudan, but it implies greater challenges.
    They need to have agreement on the principles--or 
sufficient agreement on the principles, so that there are 
guarantees in place that the day after the referendum oil will 
still get to market. Oil revenue currently provides the 
majority of government revenue in both Khartoum and Juba. So, 
there needs to be enough in place that the governments don't 
view the referendum with fear, as something that will torpedo 
their economies. And part of that solution will require 
international guarantors to that agreement.
    Senator Isakson. Ms. Giffen, you commented about security 
very comprehensively. Based on my visit to Sudan, a year ago, I 
have grave concerns that there's enough security, manpower, 
materiel, et cetera, to do the complicated security issues that 
were talked about by both you and Ms. Richard. Just by securing 
access to vulnerable populations, alone, seems to me a task 
herculean. How do you think we best move toward doing that? Or 
what would it take, if you were the king and you could make the 
rules? [Laughter.]
    Ms. Giffen. I think that's a difficult question to answer, 
given the number of challenges throughout Sudan.
    Having said that, if we are only talking about the United 
Nations Mission in Sudan--UNMIS--they did some very good 
preplanning when the Abyei Arbitration Tribunal was preparing 
to release its decision on the Abyei Border Commission's 
decision. UNMIS was able to move troops to an area, and move 
logistics to an area, to try and be prepared if something was 
going to occur. Preventive action is probably the best we can 
hope for, given the limitations of a U.N. peacekeeping 
operation.
    If it comes to the National Security Forces, I do think 
we're limited to what I suggested in my statement, which is 
really trying to do as much training on what their 
responsibilities and obligations are. Security-sector reform 
has been quite slow. It has been very focused on the army. 
There has been very little focus on the police. It's also been 
very focused at the central level, at the expense of the state 
and locality, which, of course, are best at providing security.
    So, without a functioning police, the SPLA is being relied 
on both for public security and as Anne Richard mentioned, they 
do tend to prey on the people that they are meant to protect, 
if they aren't receiving their salaries, et cetera. So, they 
are not, in some cases, a reliable tool to create security, 
especially when there's tribal dissidence between the SPLA that 
has been deployed to an area that is of another tribe.
    So, I would suggest, again, just the preventive measures 
that the U.N. has, thus far, shown. They know where these 
hotspots are. They know along the border there are some 
hotspots. They know, in Jonglei, where the hotspots are. And 
they can get there, with enough time.
    Senator Isakson. Are we going to do a second round, Mr. 
Chairman?
    Thank you very much.
    Senator Feingold. Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Members of the panel, 35 organizations representing Sudan 
advocates and Sudanese expatriates have sent an open letter to 
President Obama, calling on him to relieve General Gration of 
his duties.
    I note that General Gration is in the audience today. And I 
appreciate his attendance.
    How have these calls been viewed in the North and South? 
And then, specifically, part B is, How do leaders in the South 
view the United States? Do they view our participation as that 
of a neutral and disinterested party?
    We'll just start with Ms. Almquist, and go down the table.
    Ms. Almquist. Thank you, Senator Wicker.
    I believe that--first of all, I should say I haven't been 
to Northern or Southern Sudan since these calls have been made. 
And so, this is my opinion, based on a number of years of 
experience and in talking with individuals from here.
    Now, I think, in general, the more consistent a message 
that can come from the United States, the more effective the 
message will be on all parties in North and South. I think 
right now a challenge that we have in Khartoum, at that level, 
is a lack of clarity on their side--on the NCP's side--in terms 
of differing views, from within the administration, on, you 
know, policy questions, and particularly whether an attitude of 
engagement, as I think General Gration has tried to put 
forward, and to--you know, to sincerely talk with them, in 
terms of seeking different behaviors from them, or a more 
isolationist policy, a harder line approach, which we have seen 
in the past--if that would move behavior in many of these 
directions that we would find more acceptable and in keeping 
with the universal norms of human rights.
    I think my own experience, having participated in and 
watched the negotiations for Naivasha, and also with a number 
of the Darfur processes and N'Djamena and then Abuja, is that 
we do see more movement out of Khartoum when we engage with 
them. We have to talk with them. And we have to do that based 
on principles. And we have to do that being consistent, in 
terms of our messages and what we're seeking in that 
relationship.
    But, we need a framework and a context for that discussion 
with them, and for a relationship that goes beyond, sort of, 
our checklist of, you know, ``We don't like these, you know, 10 
things that you've done today, in terms of your population in 
various parts of the country.'' And I think that's the real 
challenge for the United States. And, I think, probably--and I 
don't know the authors of the letter that has been sent to 
President Obama, but I think differing views and perspectives 
on that are still out there.
    And the clearer the administration can be, and the more 
supportive it can be of its special envoy, and have all of the 
voices pulling in a common policy direction, the greater our 
leverage is with Khartoum; and also with the South. I think 
that they sometimes are confused by what they perceive as 
differences of messages. I don't think the South has really 
ever seen the United States as a neutral and impartial 
observer. We've been very clear, throughout the North/South 
war, that the South was the aggrieved party and victim of the 
conflict. That doesn't mean that they weren't without fault and 
doing a number of things and actions that we would not condone 
or support. But, in basic terms, we supported the Southerners' 
right to self-determination, and that's why we have the 
Comprehensive Peace Agreement that we have today.
    So, I do think that we have a special role to play with the 
South, in terms of being able to then work with them as we face 
these last tests of the Comprehensive Peace Agreement and 
moving into this next phase of, most likely, an independent 
Southern Sudan. And, again, our consistency of message is very 
important as we approach those moments and carry that forward 
beyond.
    Senator Wicker. Thank you.
    Ms. Giffen.
    And I would ask the members of the panel to be mindful that 
we're limited on our time.
    Ms. Giffen. I will just build on what Ms. Almquist said, 
which is, in addition to having a consistent message and 
coordination internally, it's very important, when dealing 
with--whether it's the Government of Sudan or the Government of 
Southern Sudan--to be coordinated with, not only our allies, 
but also others who are stakeholders in Sudan.
    So, in the past, there have been a number of times when 
diplomacy has not been as coordinated as it could be between, 
for example, special envoys or others. The problem with the 
failure to coordinate is that first, it dilutes our diplomatic 
leverage, and second, it creates fissures between the different 
messages that the government is getting and that the government 
can then exploit.
    So, I think it's quite important that work that the special 
envoy has been doing with the other five special envoys, to try 
and coordinate messages and work together--that's a key point 
to having influence over the Government of Sudan. And when we 
have had impact in opening up access--humanitarian access or 
moving forward on peacekeeping operations--it's often been 
because it's been coordinated with the United Nations and other 
donors.
    Senator Wicker. Mr. Mozersky.
    Mr. Mozersky. I'll plead ignorance on the first, because 
I'm not sure how the calls for Special Envoy Gration's 
resignation have been viewed.
    But, I will echo that--the last point that Alison made. I 
think there's been a noticeable improvement, in the last 2 to 3 
months, in international coordination in Sudan. From a 
situation 6 months ago where you had a proliferation of high-
level actors on the international side, there's beginning to be 
a coherence that's emerging, in terms of what that 
international mechanism looks like.
    Having said that, I will reiterate the point I made during 
my testimony, that I think high-level--higher level U.S. 
engagement in the period ahead is welcome. This is a unique and 
dangerous moment in time. And the U.S. Government has a unique 
role to play in sending messages, not just to the Sudanese, but 
to the region and to the broader international community, of 
the United States commitment to see the CPA implemented in 
full, see that the referendum goes forward peacefully--I think, 
is extremely valuable.
    In the South, the United States is viewed as an ally. The 
United States is viewed as a partner, and an important partner 
in the international community, on whom Southern Sudanese are 
relying in the period ahead. And there are great expectations 
for the type of assistance and type of support that will come 
from Washington and from the U.S. Government.
    Thank you.
    Senator Wicker. And finally, Ms. Richard.
    Ms. Richard. Thank you.
    Very briefly, I don't watch the activities of the special 
envoy's office closely enough to give him a grade. But, I will 
say, in his defense, that he has met with the NGOs several 
times, and been very open, in talking to us. He really hustled, 
after we were invited to leave Darfur, to improve humanitarian 
access to Darfur, after we were forced out last year. And I 
think it's an impossible job. I think it's a really, really 
difficult job.
    I would suspect that our folks on the ground overseas, in 
South Sudan, are less concerned about who's filling that role, 
but, instead, that that role be supported by the Obama 
administration. And that their main concern right now is that 
the world not lose interest in the coming months, and that the 
world stay engaged, beyond the referendum. And they're very 
concerned, right now, that there's no multiyear funding, that 
projects are all just, sort of, hanging fire, waiting to see 
what happens in the referendum. It's not a constructive way to 
engage.
    Senator Wicker. Thank you.
    Senator Feingold. I'll begin a second round.
    Back to Mr. Mozersky. Could you comment on the cohesiveness 
of the National Congress Party, and whether there are 
differences of opinion within it as to how to approach the 
referendum and its aftermath?
    Mr. Mozersky. I can do my best, but the caveat is built in.
    I think that's the million-dollar question, and it remains 
a question mark. There are--we--there's a--been a public 
commitment from President Bashir to respect the outcome of the 
referendum; to allow it to happen, or ensure that it does 
happen, and that, if the South votes for secession, to be the 
first one to recognize it.
    I think it's important to note that the likely dispute 
between North and South is not going to come on the actual vote 
for secession or unity; it will come on whether or not the 
voter turnout threshold was met. So, the referendum law 
includes a 60--a threshold of 60 percent of registered voters 
that have to turn out for the vote to be legitimate; and then a 
50-plus-1 on secession or unity. And on that, the key 
population becomes the Southern Sudanese in Northern Sudan.
    So, you have--again, the rough estimate is 1\1/2\ million 
Southerners, who were undercounted in the census, but the 
census is not necessarily the criteria for determining voter 
eligibility for the referendum. And so, there's fears that, 
from the NCP side, they may try to manipulate the voter turnout 
procedures--voter registration and then voter turnout 
procedures for that. And that could lead to a very dangerous 
situation, where we have one number coming out from Khartoum, 
another number coming up Juba, without a clear mechanism for 
how to resolve that. So, building transparency into the 
process, from now--not just in the South, but also in the 
North--I think, is very important for that.
    Having said that, it--which doesn't answer the different 
schools of thought within the NCP--I personally believe that 
there is a peaceful way forward. I think that there's a 
constellation of agreements that can--whereby the South can 
secede peacefully, that protect the core economic interests of 
Northern Sudan, that protect the core economic of Southern 
Sudan, as well as the rights and interests of the populations 
along the border. And I believe that a lot of our attention, 
over the next 7 to 8 months, needs to go in helping to support 
that process, to reduce the logic of war and to increase the 
logic of peace. It doesn't have to be a losing scenario from 
anyone's perspective. It can--there are win-win arrangements 
here.
    Senator Feingold. Thank you, sir.
    Ms. Almquist, as you know, the administration is beginning 
an effort to scale up our diplomatic, development, and conflict 
mitigation efforts in Southern Sudan. From your experience 
working in government, what recommendations would you offer for 
this effort? What are the keys to its success? And what can 
Congress do to help?
    Ms. Almquist. Thank you.
    I'm aware, in general, of the diplomatic surge and 
increased efforts to put more staff on the ground, particularly 
in Juba. And I think that those are probably in order. I know, 
firsthand, the challenges of the platform that the U.S. 
Government has in Sudan, in the South, in Khartoum, in Darfur, 
and in trying to work across the three areas. And it's an 
incredibly complicated set of issues, in terms of the 
rudimentary nature of the environment that is being worked in, 
and then the various political and bureaucratic challenges of 
each of those locales. And so, I'm sure the headaches are 
immense as one tries to do that.
    I think it's all the more important, therefore, to be very 
strategic and efficient in use of resources. And, while more 
hands on deck probably does help--again, without knowing the 
specifics of what kinds of hands those are and how they'll be 
deployed--I'd say that we need to look beyond just the sheer 
numbers of staff that we have on the ground. How are they best 
able to implement resources and deploy them in support of the 
Government of Southern Sudan, in the case of the South? How are 
we best able to support our partners in Darfur, and in the 
East, and in the two areas that will face popular consultation, 
and then, of course, in Abyei? And the answers are probably 
somewhat different for each of those locations.
    So, I think it does take a bit more nuanced approach. And I 
think that, while we need to prepare for the eventuality of 
Southern independence, and that will require more functions for 
the United States in the South, that are currently being 
carried out by the mission and the platform in Khartoum, we 
also need to maintain those missions and functions in the 
North, and to continue our engagement there. So, I think it's, 
overall, quite complicated.
    Senator Feingold. Thank you.
    Ms. Richard, in my opening remarks I mentioned the large 
number of Darfuri refugees who remain in eastern Chad. What are 
the conditions for these refugees? How will they likely be 
affected, in addition to the Chadians who were displaced in 
eastern Chad, when the U.N. peacekeeping force, MINURCAT, 
begins to withdraw from the region, as was agreed by the 
Security Council yesterday?
    Ms. Richard. Well, if you are a refugee and you flee to 
Chad, things must be pretty bad where you're coming from, 
because Chad is a very challenging place to live. IRC supports 
around 58,000 Darfuri refugees in two camps. And we also help 
another 20,000 Chadians who live nearby.
    We're very concerned about MINURCAT--the possibility of 
MINURCAT leaving, coming to an end, as we would be anyplace 
we're working, where there's the need for a U.N. peacekeeping 
operation. The need for security, as I said in my remarks, is 
just one of those fundamental things that--without which, it's 
very hard for us to do our jobs. And so, in many ways, all the 
work that we try to do to help people, whether it's food 
distributions in a camp or health care or protecting children 
and women and girls, it can't take place if there's violence 
erupting around us. So, we're very concerned about that.
    Senator Feingold. Finally, I'd welcome any of your thoughts 
on this. As international attention refocuses on the CP in 
Southern Sudan, I'm concerned, of course, that the NCP may be 
is trying a new repression to consolidate its power in the 
North. We've seen, in the past, how the NCP can effectively 
manipulate the international community's narrow focus on one 
region or conflict, at the expense of another. So, going 
forward, how can we avoid this? How can the United States and 
the international community ensure that our enhanced focus on 
the referendum in South does not detract from our other 
priorities in other parts of Sudan, as has been well 
articulated by Ms. Giffen and others already today? Whoever 
would like to take that.
    Ms. Almquist. Well, maybe I'll start by just saying that--I 
think a message that's already been said--and Dave said it most 
clearly in his testimony--is that we have to be vocal. We have 
to continue to pay attention to the whole of Sudan. We, just 
like the parties, get--have a carrying capacity in terms of our 
own agendas. And we do become singularly focused--or more 
singularly focused on some issues than others. And so, I think, 
for starters, we have to be mindful of the key issues, and 
continue to call the parties to account on Darfur, as well as 
on North/South and the next steps of the CPA process.
    So, for starters, I think we have to make sure that those 
issues are out there on the radar screen. And when things 
happen that aren't acceptable, like the offensives in Darfur 
and the use of aerial bombardments, we need to say that 
publicly. And we need to get other voices to say that publicly. 
I think the international attention really does make a 
difference, and keeping that steady drumbeat.
    It's hard to do it, you know, every day, on, you know, 
three or four different issues. And so, there is some 
selectivity that has to be there. But, I think we and others 
have tried to identify some of the most critical issues to pay 
attention to. And we have to be able to manage a Darfur agenda 
at the same time as a North/South agenda, and not suborn one to 
the other. Both are critical for the future of Sudan.
    Senator Feingold. Ms. Giffen, do you want to say something 
else about that?
    Ms. Giffen. Yes, thank you.
    One of the things that I always appreciate about the way in 
which the U.S. Government presence worked on the ground in 
Sudan was the way in which it coordinated with others. We are 
not the only ones there. We work quite well with other donor 
nations that are in places that we are not. And I think that 
that's particularly important at this moment in Darfur, in the 
East, and in the Three Areas. After the expulsion of the 13 
international agencies and the dissolution of the three 
national agencies in Northern Sudan, the information network 
and the protection network that was there was pretty much 
gutted.
    As a result, we don't hear the same information that we 
used to hear about the violations that are occurring, about the 
needs that exist on the ground.
    I often use the metaphor, that when a tree falls in a 
forest, it does make a sound, even if there's nobody there to 
hear it. There are violations occurring in Darfur, even if 
there are no internationals there to report it.
    I get quite worried when U.N. OCHA is no longer producing 
the same kind of information that they used to on the number of 
displaced, the number of needs that are out there, because they 
can't do independent assessments, and/or because they don't 
have the capacity. Without OCHA and without those agencies that 
were providing most of that information, we have very little 
information to try and figure out what is going to happen, from 
a preventive point of view. So, UNAMID doesn't know where to 
move. We don't know when to try, as an international community, 
to condemn something or prevent something from happening.
    And so, it is critical that we work with the other donors 
that are on the ground, the few NGOs that are left, to try and 
track what's happening so that we can take preventive measures 
before things happen.
    Senator Feingold. Thank you.
    On that note, I'm going to turn over to Senator Isakson for 
his questions.
    Senator Isakson. Ms. Giffen, in your first recommendation 
on intermediate steps to prevent and protect citizens, you 
referred to the donor countries, including the United States, 
and I'm going to quote this, ``should ensure that the 
Government of Southern Sudan's police and army are receiving 
training in international humanitarian law, refugee law, and 
domestic and international human rights law, including training 
and preventing fight--training and preventing, fighting sexual 
violence.'' And you were specific with the Southern Sudanese 
police and military. Is their propensity--do you think they 
have a propensity to use those types of tactics--sexual 
violence against women and inhumanitarian treatment of refugees 
and others? They have the potential to do that if there's a 
secession?
    Ms. Giffen. Unfortunately, the SPLA is a combination of a 
number of different actors, including a number of militias that 
were integrated into the SPLA following the 2006 Juba 
Declaration. That meant that there were thousands and thousands 
of armed actors that were integrated into the SPLA without 
previous formal training.
    Now, there's been quite a few attempts to do battalion-by-
battalion or unit-by-unit training in Southern Sudan, but the 
size of that army is difficult to feed and equip, let alone to 
professionalize in the time that we've had. Not to mention 
there has been very little incentive for the SPLM to demobilize 
and disarm the SPLA, given we're coming up on the referendum, 
with the exception of the fact that the SPLA absorbs quite a 
large percentage of the budget of the Government of Southern 
Sudan. And so, there have been some efforts to get ghost 
officers off the books, et cetera.
    But, yes, there is, I think, quite a bit of potential for 
the SPLA to commit violence against civilians. We already know 
that the SPLA are involved in human rights abuses. They are 
preying on communities that they're meant to protect. They have 
been involved in starting some of the conflicts that we've seen 
with tribal leaders, et cetera. So, the potential is definitely 
there. And I think that human rights training would be a good 
use of funding in preparation for a secession.
    Senator Isakson. And I suppose, then, if an unfortunate 
incident, like another civil war, broke out post-referendum, 
that those type of tactics, you're afraid, would spread as the 
conflict spread.
    Ms. Giffen. Unfortunately, in both the first and the second 
civil war in Sudan, these types of tactics, attacks against 
civilians, were used by almost all sides. I suspect that, if we 
were to go back to a situation like that, that those tactics 
would be used again.
    Again, we talked about a demilitarized zone between the 
North and the South. I think that that is potentially an 
important step. But, a lot of the insecurity that could happen 
isn't going to happen between a line of SPLA against a line of 
SAF. It is likely that it's going to be small conflicts in 
sensitive areas, through proxies and militias that have been 
stirred up, where tension is there over resource issues. These 
smaller conflicts could then serve as an accelerant to larger 
conflict that spreads. That's my concern.
    If we can keep the SAF and the SPLA separated through a 
demilitarized zone or in some other fashion, and then try to 
put out these other initially smaller fires, I think that isn't 
a bad way to go. But, there will be attacks against civilians; 
it is going to be that type of war, if we go back to war.
    Senator Isakson. I think Ms. Almquist made a good statement 
for all of us to adhere to. We tend to talk about the Sudan in 
terms of North, South, and Darfur, in three parts, when it's a 
whole. Because, I know, Ms. Richard, when I was there a year 
ago, we were told that the use of rape as a tactic against 
women and children was dissipating in Darfur from what it had 
been. Is it still dissipating? Or is it still present?
    Ms. Richard. I can't answer that question, Senator, because 
we're no longer in Darfur.
    Senator Isakson. OK.
    Ms. Richard. But, certainly the refugees, who come to Chad 
have suffered from sexual violence. And so, our programs there 
are very important.
    You know, anytime you have a chaotic situation with this 
sort of potent mix of conflict and people fleeing, the most 
vulnerable people can come--can be preyed upon. And that's why 
I think using peacetime to train soldiers on how to protect 
citizens, and the importance of doing that, is such a good use 
of our aid dollars.
    Senator Isakson. Thank you.
    Thank you, Mr. Chairman.
    Thanks, to our panelists today.
    Senator Feingold. Senator Isakson, I agree--this is an 
excellent panel, and I want to thank you.
    And I want to thank Senator Isakson for his very hard work 
on this subcommittee.
    I think a panel like this makes a big difference as we move 
forward. So, thank you.
    And that concludes the hearing.
    [Whereupon, at 3:43 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
